<html>
<title> - BARANWAL, McNAMEE AND VELA NOMINATIONS</title>
<body><pre>[Senate Hearing 115-533]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-533
 
                 BARANWAL, McNAMEE AND VELA NOMINATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   to

CONSIDER THE NOMINATIONS OF RITA BARANWAL TO BE AN ASSISTANT SECRETARY 
 OF ENERGY (NUCLEAR ENERGY), BERNARD L. McNAMEE TO BE A MEMBER OF THE 
  FEDERAL ENERGY REGULATORY COMMISSION, AND RAYMOND DAVID VELA TO BE 
                 DIRECTOR OF THE NATIONAL PARK SERVICE

                               __________

                           NOVEMBER 15, 2018

                               __________
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                               


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 33-660               WASHINGTON : 2020        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     3
Risch, Hon. James E., a U.S. Senator from Idaho..................     4

                               WITNESSES

Cruz, Hon. Ted, a U.S. Senator from Texas........................     5
Cornyn, Hon. John, a U.S. Senator from Texas.....................     7
Baranwal, Dr. Rita, nominated to be an Assistant Secretary of 
  Energy 
  (Nuclear Energy)...............................................     8
McNamee, Bernard L., nominated to be a Member of the Federal 
  Energy Regulatory Commission...................................    13
Vela, Raymond David, nominated to be Director of the National 
  Park 
  Service........................................................    18

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

American Council of Engineering Companies, et al.:
    Letter for the Record........................................   109
Baranwal, Dr. Rita:
    Opening Statement............................................     8
    Written Testimony............................................    11
    Responses to Questions for the Record........................    55
Cantwell, Hon. Maria:
    Opening Statement............................................     3
Chesapeake Conservancy:
    Letter for the Record........................................   112
ClearPath Action:
    Letter for the Record........................................   114
Cornyn, Hon. John:
    Introduction of David Vela...................................     7
(The) Corps Network:
    Letter for the Record........................................   115
Cruz, Hon. Ted:
    Introduction of Bernard L. McNamee...........................     5
Kiernan, Thomas C.:
    Letter for the Record........................................   120
League of United Latin American Citizens:
    Letter for the Record........................................   121
Lewis and Clark Trust, Inc.:
    Letter for the Record........................................   122
McNamee, Bernard L.:
    Opening Statement............................................    13
    Written Testimony............................................    16
    Responses to Questions for the Record........................    62
    Responses to Supplemental Questions for the Record...........    84
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
National Association of Manufacturers:
    Letter for the Record........................................   123
National Association of State Park Directors:
    Letter for the Record........................................   124
National Parks Conservation Association:
    Letter for the Record........................................   125
Nuclear Energy Institute:
    Letter for the Record........................................   127
Public Employees for Environmental Responsibility (PEER):
    Letter for the Record........................................   128
Public Lands Alliance:
    Letter for the Record........................................   133
Risch, Hon. James E.:
    Introduction of Dr. Rita Baranwal............................     4
Sanders, Hon. Bernard:
    Statement for the Record.....................................   136
Smith, Linda M.:
    Statement for the Record.....................................   138
Teton County (WY) Board of Commissioners:
    Letter for the Record........................................   140
Timmons, Jay:
    Letter for the Record........................................   141
Vela, Raymond David:
    Opening Statement............................................    18
    Written Testimony............................................    20
    Responses to Questions for the Record........................    88


                 BARANWAL, McNAMEE AND VELA NOMINATIONS

                              ----------                              


                      THURSDAY, NOVEMBER 15, 2018

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning. The Committee will come to 
order.
    I am told that our Ranking Member is making her way through 
the slush. Recognizing that we have a full hearing today, we 
will proceed without her and hopefully she will be here 
shortly.
    Before I begin, either with my opening or certainly before 
moving to our nominees this morning, I would just like to 
recognize that within this Committee we have oversight of the 
Forest Service, those federal agencies that are involved with 
fighting our wildfires across the country, and we recognize the 
incredible damage, the loss of life, just the true tragedy in 
California at this time. I would just ask members to stop for 
one very short moment and recognize those whose lives have been 
lost, those who are in danger as they are working to protect 
our people and our properties and pause for one moment for 
those that are dealing with the current tragedy in California.
    [A moment of silence.]
    Thank you.
    We are back this morning after our several-week recess for 
the mid-term elections. We don't exactly know how long the lame 
duck session will last, but there is still plenty of work to do 
in this 115th Congress, particularly when it comes to 
nominations.
    Our Committee has spent a significant amount of time 
processing nominations in this Congress, and we are here today 
to consider three more: Dr. Rita Baranwal to be the Assistant 
Secretary of Energy for Nuclear Energy, Mr. Bernard McNamee to 
be a Commissioner on the Federal Energy Regulatory Commission 
and Mr. Raymond David Vela to be Director of the National Park 
Service.
    I first want to speak to Dr. Baranwal. The position she has 
been nominated for is tasked with overseeing our nation's 
nuclear innovation and ensuring the long-term viability of our 
domestic nuclear industry. Should she be confirmed, she will 
have the opportunity to help shape the future of nuclear 
energy--not just here in the United States, but globally as 
well.
    She currently serves as the Director of the Gateway 
Accelerated Innovation in Nuclear program, known as ``GAIN,'' 
at the Idaho National Lab (INL). I am certainly interested to 
know how her work has positioned her to reassert the United 
States as a world leader in advanced nuclear technology, which 
is one of my key priorities.
    Mr. McNamee is back before the Committee. He has been here 
three times now, although this will be his first time as a 
nominee. He previously appeared in a policy capacity for the 
Department of Energy, and I am sure that he will face a number 
of questions about the Administration's efforts to provide 
economic relief to struggling coal and nuclear plants.
    As we discussed when we met before the recess, the Federal 
Energy Regulatory Commission (FERC) is an independent agency 
and must continue to function as such. The Commission's orders 
are never contingent on the Department of Energy's policy 
decisions, and in the meeting that I had with Mr. McNamee, I 
stressed the importance of maintaining FERC's autonomy and 
commitment to taking an independent role at FERC.
    So I will note, when it comes to Mr. McNamee's nomination 
here, this is not the first time that we have had a nominee 
with policy experience at the federal and state levels. In 
fact, in this Congress alone, as we sought to establish a full 
quorum at FERC, we have confirmed two former Senate staff to 
the Commission: Neil Chatterjee, who previously served as the 
Majority Leader's Energy Policy Advisor, and Rich Glick, a 
former Senior Counsel for Senator Cantwell here on the 
Committee.
    Our final nominee this morning, Mr. Vela, has been 
nominated to be the Director of the National Park Service. He 
would oversee some our greatest national treasures. In order to 
ensure that our parks are here for future generations, we must 
balance our ability to enjoy and explore them with our 
responsibility to keep and maintain them. If he is confirmed, 
he will be responsible for leading the way in finding that 
balance. It is also expected that he would take on a wide range 
of issues facing the Park Service, from sexual harassment to 
the deferred maintenance backlog. I think it is significant to 
note that he would be the first Hispanic American confirmed to 
this position.
    I would like to thank all those who have been nominated for 
their willingness to serve our country.
    If members have additional questions after the hearing 
concludes today for the record, we will close that out at the 
end of the business hours today.
    If these nominees prove qualified and have the requisite 
support, my plan is to report them to the full Senate shortly 
after Thanksgiving. I hope they can be confirmed, along with 
the seven nominees that we already have pending on the 
calendar, before we adjourn for the year.
    I really do not want to see all the good effort that this 
Committee has put into advancing these nominees fall by the 
wayside. We need to do that, but also these agencies need these 
folks in place. They need to have the leadership teams. I also 
recognize that these nominees have basically put their lives on 
hold during this process, so they deserve some certainty as 
well. I would ask that you all work with me to clear the 
nominations in Energy's jurisdiction before the end of the 
year.
    I will now turn to Senator Cantwell. After she has 
concluded her opening remarks, Senator Risch has asked to 
introduce Dr. Baranwal. Senator Cruz is with us this morning. 
We welcome you to the Committee. He will be here to introduce 
Mr. Vela, excuse me, Mr. McNamee. Senator Cornyn will be with 
us in just a moment to introduce Mr. Vela.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair.
    I join you in extending a warm welcome to all the nominees 
and to their families. This hearing brings together three very 
different offices in keeping with this Committee's broad 
jurisdiction. Each of these face its own set of challenges.
    The National Park Service has been without a confirmed 
director for nearly two years. I am very pleased that the 
President has finally nominated someone for this important 
position. I am especially pleased that he has nominated someone 
who has come up through the Park Service ranks. Mr. Vela has 
been a park ranger, a park superintendent, and he should 
understand the problems that face our parks firsthand.
    For too long we have underfunded our parks, and the 
resources we have devoted to maintaining and staffing our parks 
have not kept pace with park visitation. So I am counting on 
Mr. Vela to understand the importance of our parks to the 
American people and to our economy. I am counting on him, if 
confirmed, to be an effective spokesperson and advocate for our 
park system.
    If Mr. Vela's job is to preserve our parks and historic 
sites, Dr. Baranwal's will be to contend for the future. 
Whether one is for or against nuclear power, there is no 
question that nuclear power has played a very important role in 
our energy security for the past half a century or more.
    As the current generation of nuclear power plants come to 
the end of its useful life, we will need to develop the next 
generation of nuclear technologies. The next generation must be 
safer and more proliferation-resistant and more economically 
competitive than today's nuclear power plants.
    At the same time, we must develop the workforce we will 
need to design, build and operate these plants. And we need to 
find ways to work constructively with other nations where these 
plants will be built to ensure that these technologies are used 
safely for peaceful purposes. Here again, I am pleased that we 
have a nominee with experience in this field.
    The one statutory qualification for appointment to the 
Federal Energy Regulatory Commission is that the nominee be 
specially qualified to assess fairly the needs and concerns of 
all interests affected by the federal energy policy. Today I 
will be listening for assurances that Mr. McNamee meets that 
test.
    Like many of our colleagues here, I have been troubled by 
this Administration's persistent efforts to try to interfere 
with our electricity markets in order to subsidize high-cost 
coal generation at the expense of our ratepayers. Whether 
fairly or not, Mr. McNamee's name has been associated with 
those efforts, so I look forward to hearing from him this 
morning on these views and on this important matter. I will be 
interested in hearing how he will reconcile previous 
involvement in Secretary Perry's efforts in the need to be 
impartial for the matters that FERC will address.
    I will also be interested in hearing how Mr. McNamee's 
views on FERC obligations to ensure that electricity rates are 
just and reasonable and markets are competitive and how he 
thinks the Commission can do that if subsidies for 
uncompetitive coal are somehow mandated.
    So again, Madam Chair, thank you so much.
    I do want to say my condolences to Dr. Baranwal for your 
loss of your father earlier this week. Our thoughts and prayers 
are with you and your family and thank you for being here today 
and continuing with your efforts in the nomination of your 
post.
    The Chairman. Thank you, Senator Cantwell.
    We will now turn to introductions.
    Senator Risch has asked to go very briefly to introduce Dr. 
Baranwal as he has to rush out of here. Then we will turn to 
you, Senator Cruz, and hopefully by that time, Senator Cornyn 
will join us.

               STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    Senator Risch. Well, thank you very much, Madam Chairman.
    It is my distinct privilege and honor this morning to 
introduce Dr. Rita Baranwal. As is noted, we all join in 
expressing our condolences. You are soldiering on here with us 
and we understand that these are circumstances you wish things 
were different--but our condolences, the Senate Family's 
condolences.
    She has been nominated to be Assistant Secretary for 
Nuclear Energy at the Department of Energy.
    I am also pleased to recognize Rita's family. Is Peter 
here? There's Peter, okay, and her two children Sanjay and 
Amiya. What a pretty name, Amiya, that is. Thank you so much 
for joining us.
    My home state, Idaho, is fortunate to host the Idaho 
National Laboratory. It is our nation's flagship nuclear energy 
laboratory, the birthplace of nuclear energy in America and, 
indeed, in the world. The INL has a rich history dating from 
the dawn of commercial nuclear power and the launching of the 
nuclear navy, and this work continues today.
    The INL is the leading partner with the Department of 
Energy's Gateway for Accelerated Innovation in Nuclear, also 
known as GAIN. That initiative is currently headed by Dr. 
Baranwal as its Director. As Director of the GAIN initiative, 
Dr. Baranwal is hoping to bridge the gap between innovators in 
the private sector and the world class research capabilities of 
our national laboratories, thereby accelerating new, innovative 
nuclear energy technologies toward market readiness.
    Prior to leading the GAIN initiative, Dr. Baranwal spent 
more than 20 years working in the nuclear industry, including 
nearly 
a decade at Westinghouse in their Nuclear Fuel Division. Dr. 
Baranwal encountered the nuclear industry working for the 
Bettis Atomic Power Laboratory after completing graduate 
school. While developing advanced nuclear fuel for the U.S. 
Navy, Dr. Baranwal discovered and appreciated the nuclear 
energy initiatives in America today. At Westinghouse, Dr. 
Baranwal led numerous R&D programs including examining nuclear 
fuel and fuel rods. Dr. Baranwal received her Master's and 
Doctorate in Material Science and Engineering from the 
University of Michigan and her Bachelor's in the same 
discipline from Massachusetts Institute of Technology (MIT).
    In light of her extensive qualifications, I look forward to 
working with this Committee to bring her nomination to the 
Senate floor as soon as possible. Rita, we all look forward to 
hearing your testimony today.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Risch.
    Senator Cruz, we welcome you before the Committee and are 
pleased that you are able to provide introductions this 
morning.

                  STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. Thank you, Madam Chairman. Thank you, members 
of the Committee.
    It's a pleasure to join you this morning and I'm 
particularly happy to have the opportunity to introduce to you, 
Bernie McNamee. He has been nominated, as you know, by the 
President to be a Commissioner on the Federal Energy Regulatory 
Commission and I think he'll prove to be an excellent addition 
to the FERC.
    Bernie joined my Senate staff as an Energy Advisor and as a 
Counsel in July 2013 which, I think, was just weeks after we 
had moved out of the basement office they put us in as Freshman 
Senators. So his timing was impeccable to arrive to actually 
get an office where there was room for him. Bernie's intellect 
and his work ethic soon led for him to be promoted to becoming 
the Senior Domestic Policy Advisor in the office and that was a 
position he held until he moved back to Texas in December 2014.
    While he was working in our office, his work was critical 
in developing legislation I introduced, the American Energy 
Renaissance Act, which was designed to be a comprehensive bill 
focusing on unleashing the great energy resources of this 
nation and helping spur our economy and create jobs.
    Bernie's policy advice was particularly useful because it 
was also informed by his practical experience of having been an 
energy lawyer before. Before he joined my staff, he was a 
partner with a major law firm of McGuireWoods in Richmond, 
Virginia, where he represented electric and natural gas 
utilities before state public utility commissions.
    Bernie has been recognized by Virginia Business Magazine 
as, ``One of the legal elite for legislative, regulatory and 
administrative law'' in the years 2008 and 2012, and he has 
been named one of the Best Lawyers in America for Energy Law by 
Woodward White Incorporated from 2010 to 2013.
    Bernie's approach was consistently thoughtful, and he would 
examine issues from all angles. One aspect of his character 
that I always appreciated was his concern for the younger 
members of the staff. He was always willing to help guide and 
mentor them and take time to help them think through 
complicated and challenging issues.
    In addition to having worked in the United States Senate, 
Bernie served in leadership positions for four attorneys 
general in two different states, in Virginia and Texas. And in 
addition, he was a policy advisor to a Virginia governor.
    Bernie currently works at the U.S. Department of Energy 
where his positions have included Deputy General Counsel for 
Energy Policy and Executive Director of the Office of Policy 
and he currently serves as a Senior Advisor in the Office of 
Science.
    Finally, I'll say Bernie is just fundamentally a good guy. 
He's someone who, when you work with him, he thinks carefully, 
he thinks diligently, he's smart, he's principled, he's 
earnest. He cares about these policy issues. He cares about 
understanding them. He cares about hearing from different 
stakeholders and understanding how a particular policy issue is 
going to impact all of the stakeholders.
    And he's got a good heart. He values public service. He has 
had a lucrative career in private practice, and yet he has 
demonstrated being a repeated recidivist, leaving that career 
to go back to public service over and over and over again. And 
it's because he genuinely cares about helping implement policy 
that will benefit the American people.
    I would note in the opening remarks there was reference 
made to consumers and consumers wanting low prices in energy. 
And I will say Bernie is someone who appreciates, and 
appreciates passionately, the importance of competition for 
lowering prices and for benefiting consumers.
    And so, I'm pleased to tell you, from my experience working 
alongside him, that I have every confidence that Bernie will 
make an exceptional commissioner at FERC and I encourage this 
Committee to confirm him.
    The Chairman. Senator Cruz, thank you very much. I 
appreciate you being here this morning and providing that very 
generous introduction.
    Senator Cornyn has not yet joined us----
    Senator King. We don't get a chance to cross-examine 
Senator Cruz?
    [Laughter.]
    The Chairman. We would love to have that opportunity, 
Senator King.
    [Laughter.]
    The Chairman. We would like to invite up each of the 
nominees at this time, and we will proceed with swearing you 
each in. If Senator Cornyn has not joined us at that time he 
may have an opportunity to provide his comments from the dais 
later. But in the interest of time and our opportunity to have 
sufficient opportunity to ask and answer questions, we will 
proceed.
    The rules of the Committee which apply to all nominees 
require that they be sworn in in connection with their 
testimony. So I would ask you each to raise your right hand.
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth and nothing but the truth?
    [All nominees respond, I do.]
    You may go ahead and be seated.
    Before you begin your statements, I will ask you three 
questions addressed to each nominee who appears before this 
Committee.
    The first, will you be able to appear before this Committee 
and other Congressional committees to represent departmental 
positions and respond to issues of concern to the Congress?
    [All nominees respond, yes.]
    Are you aware of any personal holdings, investments or 
interests that could constitute a conflict or create an 
appearance of such a conflict should you be confirmed and 
assume the office to which you have been nominated by the 
President?
    [All nominees respond, no.]
    Are you involved or do you have any assets held in blind 
trusts?
    [All nominees respond, no.]
    Okay, with that, let us pause one moment as we invite 
Senator Cornyn to come forward.
    [Laughter.]
    Senator Cornyn, if you want to join us just at the dais 
here, that might be easier and your timing is impeccable this 
morning.
    Senator Cornyn. [Off mic]
    The Chairman. We appreciate the fact that you have come 
this morning. We just concluded the introductions of Dr. 
Baranwal and an introduction of Mr. McNamee and all three 
witnesses have now been sworn in and we welcome your 
introduction of Mr. Vela.

                STATEMENT OF HON. JOHN CORNYN, 
                    U.S. SENATOR FROM TEXAS

    Senator Cornyn. Thank you very much, Madam Chairman and 
Ranking Member Cantwell.
    It is a pleasure to be here on this historic occasion--and 
I will speak more to that in just a moment--to introduce my 
fellow Texan, David Vela, to be the next Director of the 
National Park Service, and thanks for giving me an opportunity 
to say a few words.
    David grew up in Wharton, Texas, which, for those of you 
who are familiar with our geography know that's about 60 miles 
southwest of Houston, and he realized the importance of our 
national parks at a young age.
    Those who have spent some time in Texas know that it is 
home to 14 areas managed by the National Park Service, 
including the Guadalupe Mountains and Big Ben National Park, 
famous for its 1,500-foot cliffs.
    In pursuit of his passion, David became an Aggie, went to 
Texas A&M where he received a Bachelor of Science degree in 
Recreation and Parks. Now, after having served more than 28 
years in the National Park Service, David understands, more 
than most, the importance of protecting and maintaining our 
natural resources for generations to come.
    David began his service with the National Park Service in 
my hometown of San Antonio with the San Antonio Missions 
National Historic Park. Since then he has held numerous 
postings with the Park Service across the country, including 
Director of the Southeast Region, notably governing the 
Everglades in Florida and scenic trails through the Appalachian 
Mountains.
    Currently, David serves as the Superintendent of Grand 
Teton National Park in Wyoming and the John D. Rockefeller 
Junior Memorial Parkway. His understanding of the inner 
workings of the Park Service make him uniquely qualified to 
oversee our park system. I have no doubt, based not only on 
what I have learned about David, but from what his friends and 
colleagues have told me, that he is the right person for this 
important job.
    He also--and this is the historic part--in addition to his 
tremendous qualifications, he is the first Latino ever to be 
nominated for the Director of the National Park Service. His 
extensive expertise and dedication to public service have 
prepared him to confront the many challenges and there are many 
challenges confronting our National Park Service.
    So thank you for giving me a chance to say a few words on 
his behalf and introduce him here today. And I hope all of you 
will vote by acclimation for his nomination.
    Thank you so much.
    The Chairman. Thank you, Senator Cornyn. We appreciate that 
you have taken time out of your schedule to be here before the 
Committee and present Mr. Vela to the Committee.
    We appreciate that.
    With that, let us begin with opening statements.
    I ask that you try to keep your statements around five 
minutes. Your full statements will be included as part of the 
Committee record. We certainly invite you to introduce your 
family members.
    Dr. Baranwal, I know that Senator Risch has introduced 
yours, but again, please take that time because we know that 
you cannot do the job that the President has nominated you to 
do unless you have the full support of those friends, those 
families that back you up.
    So, Dr. Baranwal, welcome to the Committee and please 
proceed.

 STATEMENT OF DR. RITA BARANWAL, NOMINATED TO BE AN ASSISTANT 
              SECRETARY OF ENERGY (NUCLEAR ENERGY)

    Dr. Baranwal. Good morning Chairman Murkowski and Ranking 
Member Cantwell and members and staff of the Committee. It is 
truly my honor to appear before you today as President Trump's 
nominee for Assistant Secretary for Nuclear Energy at the 
United States Department of Energy.
    I would like to begin my statement by expressing my 
gratitude to the President and to Secretary Rick Perry for this 
nomination. I am truly humbled by the confidence that they have 
placed in me.
    I've had the honor of collaborating with numerous talented 
individuals throughout my career as a materials engineer and as 
a leader in the nuclear industry. There are many colleagues, 
friends and family members whose mentorship and faith in my 
abilities have contributed to my career path to make my sitting 
before you today possible.
    I want to especially thank and recognize my husband, Peter, 
for his relentless support and understanding. He is here today 
with our children, Sanjay and Amiya, who are missing school for 
this real-life civics lesson.
    Madam Chairman, with your approval, I'd like to reintroduce 
them to the Committee.
    The Chairman. Welcome----
    Dr. Baranwal. I would also like to thank my sister, Seema, 
who has always been my cheerleader in my pursuit of a career in 
an industry that hasn't been typical for women or for Indian-
Americans.
    And lastly, I wouldn't be here without the support and love 
of my parents, Krishna and Arti, excuse me, who immigrated to 
America before I was born. They raised me to appreciate diverse 
cultures and to be diligent and inquisitive. They taught me, 
when faced with an issue, to focus on the ``what and the why?'' 
first, and then to worry about the ``how?'' That is a lesson 
that has served me very well throughout my life.
    Chairman Murkowski and members of the Committee, as I seek 
your approval for appointment to this office, I would like to 
share a few thoughts about my background and experiences that I 
believe would qualify me for this position.
    I graduated from Massachusetts Institute of Technology with 
a degree in Materials Science and Engineering. Upon winning a 
National Physical Science Consortium Fellowship, I went on to 
the University of Michigan to earn my Master's and Doctorate in 
the same discipline. There, I developed nanopowders, before 
``nano'' was even a buzzword.
    My first job after graduate school was my introduction to 
the nuclear industry. I leveraged my thesis work to develop 
advanced nuclear fuel for the United States Navy's nuclear 
fleet while working at Bettis Atomic Power Laboratory.
    During this time, I had the good fortune of visiting 
Newport News Shipyard while the USS Ronald Reagan was being 
constructed. And as I stood in the cavity of the reactor 
compartment, looking several stories up, the impact of my work 
overwhelmed me. I realized that the material that I was 
researching could soon be used to propel this enormous aircraft 
carrier. That moment was absolutely pivotal to my career. It 
was then that I truly appreciated the magnitude of the energy 
density that nuclear power provides and the role that it plays 
in enhancing our nation's national security.
    While nuclear energy reliably produces 20 percent of our 
electricity, and is a clean, secure baseload source, it also 
powers ships and submarines to defend U.S. interests around the 
world.
    I have spent more than 20 years in the nuclear industry, 
including nearly a decade at Westinghouse in the Nuclear Fuel 
Division, leading numerous research and development programs 
and fostering relationships with dozens of utility customers. 
That experience led me to my current role as Director of GAIN, 
the Gateway for Accelerated Innovation in Nuclear, a DOE 
initiative.
    In this role, I created private-public partnerships to help 
advance advanced nuclear technology developers and help them 
commercialize their technologies faster and more cost-
effectively by leveraging the capabilities of the United States 
National Laboratory complex. Since 2016, GAIN has positively 
impacted 112 companies.
    Advanced nuclear technologies provide an opportunity for 
the United States to meet future electricity demands while 
benefiting our economy, environment and national security. The 
United States invented nuclear technologies for peaceful uses 
and we are the world's largest producer, accounting for more 
than 30 percent of worldwide generation of nuclear electricity.
    The U.S. remains in a position of strength, but that future 
is not guaranteed. Thanks to my experiences, I also have a deep 
appreciation of the challenges and the needs of this sector.
    Today, America is in the midst of a period of incredible 
energy progress, and the nuclear sector enjoys bipartisan 
support as demonstrated by the recently enacted Nuclear Energy 
Innovation Capabilities Act, NEICA.
    Should I be confirmed, I will draw upon my previous public 
and private sector experiences in the nuclear energy industry 
to execute the Office's mission of advancing nuclear power to 
meet the nation's energy, environmental and national security 
needs.
    Chairman Murkowski, Ranking Member Cantwell, members of the 
Committee, thank you again for this opportunity to appear 
before you as the President's nominee to be Assistant Secretary 
for Nuclear Energy at the Department of Energy. I commit to 
working with the Committee and to be responsive to requests to 
testify, meet with Committee members and share information.
    Thank you very much for your time today. I look forward to 
answering your questions as you consider my nomination.
    [The prepared statement of Dr. Baranwal follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    The Chairman. Thank you, Dr. Baranwal. Thank you for 
outlining your very extensive background within the nuclear 
sector. I appreciate that expertise, and know that we all 
express our condolences for your personal loss.
    Mr. McNamee, welcome to the Committee.

 STATEMENT OF BERNARD L. McNAMEE, NOMINATED TO BE A MEMBER OF 
            THE FEDERAL ENERGY REGULATORY COMMISSION

    Mr. McNamee. Thank you, Madam Chairman----
    [Protester interrupts.]
    The Chairman. The Committee will come to order.
    [Protester continues.]
    Mr. McNamee, if you will proceed.
    Mr. McNamee. Chairman Murkowski, Ranking Member Cantwell 
and members of the Committee, thank you for giving me another 
opportunity to appear before all of you.
    I also want to say thank you to Senator Cruz for that kind 
introduction that he gave to me.
    I also want to say before beginning my formal remarks, I 
would like to introduce my family. My wife, who is my dearest 
friend, my son, of whom I'm so proud. Not here are my mother 
and father, sorry, who have supported me with unconditional 
love and support. Also, my sister who is also my dear friend.
    I also want to say thank you to the President for having 
nominated me to this position and to Secretary Perry and all of 
my colleagues at the Department of Energy who have just 
supported me with their friendship and have always been kind to 
me.
    These are exciting times to be in the energy sector. We are 
in the midst of the great American Energy Renaissance, one that 
has created and is supporting millions of good-paying jobs for 
American workers. It has lowered energy costs for families and 
for businesses and has broken America's dependence on foreign 
energy supplies. We have also seen the development of new 
technologies and grid innovations, and they are transforming 
the way we generate and use electricity.
    As an independent agency, FERC plays a vital role in the 
United States energy sector by implementing Congressional 
policy to help ensure that Americans have access to abundant 
and affordable energy, things I know that are very important to 
this Committee.
    FERC's regulation of the wholesale electric markets and 
bulk power system, the interstate gas pipelines, oil pipelines, 
help ensure that rates are just, reasonable and not unduly 
discriminatory.
    FERC facilitates the building of new energy infrastructure 
by permitting LNG facilities, gas pipelines and licensing non-
federal hydro facilities. It protects the grid through 
reliability standards. And importantly, FERC oversaw the 
development of competitive electricity markets, which has been 
one of the great economic success stories of this country. In 
short, FERC plays a vital role, along with the states and the 
private industry, in powering America. If confirmed, I would be 
committed to seeing that this success continues.
    To that end, I think that markets are the best way to 
allocate resources and set prices and, if confirmed, I'm 
committed to continuing FERC's independence in its decision-
making.
    There are also challenges. In particular, there is a 
growing recognition that the energy grid and energy supply 
chains are vulnerable to physical and cyberattacks. I know 
these are issues also important to the Committee. I know that 
they're also, through these issues, that there's going to take 
a lot of work from different agencies and different people. And 
I pledge to work, not only with my fellow commissioners but 
with the other agencies and this Committee and Congress as a 
whole, to try and figure out how are we going to address these.
    As FERC confronts so many issues involving the electric 
grid, the pipelines and ratemaking, I believe my experience as 
a lawyer and a policy advisor will help me assist FERC in its 
mission and its duties.
    As an energy lawyer for almost nine years at McGuireWoods 
in Richmond, Virginia, I represented various energy clients in 
electric and natural gas issues. My cases included construction 
of solar facilities in Virginia, a 1,300-megawatt natural gas 
combined-cycle facility, conversion of three coal plants to 
natural gas, approval of renewable portfolio standards, 
integrated resource planning, rate cases and energy efficiency 
programs. I've not only just talked about fuel diversity, I've 
also worked on ``all-of-the-above'' and, in short, the work 
I've done has helped make these issues a reality and I know 
these are things that are important for the nation.
    In addition to my experience as a lawyer, I've also had the 
honor of working as a policy issues, energy policy issues at 
the Department of Energy, in Congress when I was working for 
Senator Cruz and also at a think tank at the Texas Public 
Policy Foundation.
    I also understand the important perspective of the states 
in our federal energy system, especially on energy issues, 
through my roles with four state attorney generals and in 
representing the electric and natural gas utilities before 
state public utility commissions.
    If confirmed, I commit that I will be a fair, objective and 
impartial arbiter in the cases and issues that would confront 
me as a Commissioner. My decisions will be based on the laws 
and the fact, not politics.
    And I don't just say this just because I'm trying to get 
your vote, it's something I believe because I think that the 
rule of law depends on the fact that people who are in the 
position of making decisions, that they listen and they hear 
what people say and they consider it.
    I've been so fortunate in my career as a lawyer to be 
before independent tribunals where people may have been 
appointed by legislators, they may have been a Republican or 
Democrat, but I knew they listened. They paid attention to the 
issues and they were able to separate out what their past lives 
were and they were going to make the decisions based on what 
the law was and what the facts were. And I pledge to you, I 
will do my best to do the same.
    FERC has a central role in ensuring that America has the 
energy necessary to continue its future prosperity. And, should 
I be confirmed, I look forward to doing my part to help FERC in 
its mission on behalf of the American people.
    Once again, I am honored and humbled to have been nominated 
for this position and I hope to gain your support, and I look 
forward to your questions.
    Thank you.
    [The prepared statement of Mr. McNamee follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    The Chairman. Thank you, Mr. McNamee, we appreciate that.
    Let's now turn to Mr. Vela.
    Welcome to the Committee.

 STATEMENT OF RAYMOND DAVID VELA, NOMINATED TO BE DIRECTOR OF 
                   THE NATIONAL PARK SERVICE

    Mr. Vela. Thank you, Chairman Murkowski, Ranking Member 
Cantwell and distinguished members of the Committee. I'm 
honored to have half of Texas behind me and members from 
Jackson Hole.
    My wife, Melissa, our daughter, Christina, our son, 
Anthony, daughter-in-law, Amelia, and Uncle Paul, Aunt Jenny, 
Cousin Bianca and dear friends----
    [Laughter.]
    The Chairman. Wow, that is impressive.
    Mr. Vela. ----from Texas and Jackson Hole. I'm deeply 
humbled that they're here today and thank you for that 
opportunity to recognize them.
    I am also deeply humbled and honored to be before you today 
as President Trump's nominee to serve as the 19th Director of 
the National Park Service. I want to thank Secretary Zinke for 
his confidence and support in me for this position.
    In addition, I greatly value and appreciate the 
introduction from the distinguished Senator from Texas, Senator 
John Cornyn.
    As the oldest grandchild of a sharecropper, my journey 
through the National Park Service began on a trip to 
Yellowstone National Park while a young teenager from our rural 
home in Wharton, Texas. My parents decided one day to take a 
trip with my younger brother Michael, sister Judy and I, and it 
proved to be a journey of a lifetime.
    My dad, Raymond, who is a proud Navy veteran, and my 
mother, Mercedes, who are watching these proceedings today from 
Texas, raised their three children with a strong foundation and 
appreciation of faith, family and country.
    On that first-ever trip to Yellowstone, we stopped at Grand 
Teton National Park. Our eyes could not fully absorb all that 
we were seeing: iconic landscapes, wildlife and the first-ever 
sighting of a National Park Ranger. The image of that National 
Park Ranger truly caught my eye, and I began to think of how 
special it must be to work in a national park. Upon arriving 
home from Yellowstone, I devoured every article that our 
assistant high school librarian, Ms. Betty Bergstrom, could 
find.
    After graduating from Texas A&M University with a Bachelor 
of Science Degree in Recreation and Parks, my journey as a 
permanent employee of the National Park Service was finally 
realized when I became a permanent employee at San Antonio 
Missions National Historical Park.
    Accompanying me through this entire journey is my 
kindergarten classmate, high school sweetheart, and bride of 
over 38 years, Melissa. I'm truly blessed that Melissa said 
``yes'' and supported our many moves across this great country. 
We raised two children in the national parks, Christina and 
Anthony, who like their parents, are also graduates of Texas 
A&M University. We're so proud of our children as Christina 
works in the field of education while Anthony serves as a Chief 
Ranger in one of our park units in Florida. Anthony met his 
wife Amelia while they were working in Grand Teton National 
Park, and Amelia is also a National Park Service employee. 
Melissa and I are so blessed to have six grandchildren. They 
are with us here today, ranging in ages from 11 years to 9 
months. We are also pleased to have members of our family, 
friends, and colleagues who are also here today.
    Over the course of nearly 29 years in the National Park 
Service, I have held nearly every leadership position in the 
agency. From serving as a frontline ranger, supervisory park 
ranger, superintendent at four different park units, regional 
director of 66 units in the southeastern United States and the 
Caribbean to associate director in headquarters. Today, I serve 
as Superintendent of the very national park that changed my 
life.
    As a result of these experiences, I've had the honor of 
working with a very passionate and dedicated workforce, the 
pride of the National Park Service. I'm so very proud of our 
permanent, seasonal and volunteer workforce. Yet, we as an 
agency have fallen short in treating them with the dignity and 
respect that they truly deserve. The scourge of sexual and 
workplace harassment in society and in the National Park 
Service must stop. Great strides have been made within the 
agency, but there's more to be done. If confirmed, I will 
continue to hold people and processes accountable to ensure 
that we achieve our workplace and workforce interests.
    Since his confirmation, Secretary Zinke has been discussing 
and tackling the Department's deferred maintenance backlog, as 
it has been one of his top priorities. The National Park 
Service has the largest share at $11.6 billion.
    I applaud the Administration and the Congress in pursuing a 
funding and mitigation strategy designed to address the network 
of roads, restrooms, water treatment systems, housing and 
visitor centers that are aging and exceeding capacity. Many of 
these facilities have a direct impact on the visitor experience 
and, should this bill pass and should I be confirmed, I look 
forward to rebuilding our national treasures so they remain the 
envy of the world.
    As we embark upon a second century of service, we must make 
ourselves relevant to current and future generations while 
building a diverse population of conservation stewards and 
workforce. From tackling the effects of climate change to 
addressing the visitor experience, future generations will be 
impacted by the decisions and actions that we take today. With 
this in mind, I would like to acknowledge the students and 
faculty of Wharton County Junior College and Texas A&M 
University who are watching this hearing today.
    As the first Latino in the over 102-year history of the 
National Park Service to be nominated as Director, I am 
reminded of the lessons taught to me by a sharecropper: be 
humble, maintain a strong moral and ethical compass and pursue 
causes greater than myself.
    Chairman Murkowski, Ranking Member Cantwell, and 
distinguished members of the Committee, if confirmed, I eagerly 
look forward to working with you in protecting what has been 
called ``America's Best Idea,'' our nation's national parks.
    It is my pleasure to answer any questions that you may 
have.
    [The prepared statement of Mr. Vela follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
        
    The Chairman. Thank you, Mr. Vela, and thank you to your 
family. You truly have a family history of service to our 
national parks and that is most appreciated. We welcome all of 
you. We welcome all of the families.
    We have many members here today, so we will move quickly 
into questions.
    Mr. McNamee, let me begin with you and ask the question 
that I have been asked repeatedly since your name came forward 
in nomination. You have been supported by many, but your 
nomination has also been criticized by some due to your 
previous position as DOE's Director of the Office of Policy and 
your purported involvement in the Administration's effort to 
subsidize coal and nuclear power plants. I would like to give 
you the opportunity to respond to that and also ask the 
question as to whether or not you believe that your prior 
policy work will unduly influence your decision-making as a 
Commissioner at the FERC.
    Mr. McNamee. Thank you, Chairman.
    I think I can, I know I can honestly say that I will be an 
independent arbiter if the issues come before me at FERC. I 
think it's important to look at the law and the facts and then 
make those decisions based on that.
    So I mentioned in my introduction, I've had the benefit of 
being before Commissioners at the state level and knowing that 
they always listened. They looked at the facts, the law, and 
they made the hard decision but the most important thing is 
they listened and they thought. And sometimes you won, 
sometimes you lost, but you were always confident that they 
were paying attention and that was very important.
    And as you mentioned, the concern out there is when I was 
part of the Department of Energy's, the Deputy General Counsel 
for the Department, my role was working on the Section 403 NOPR 
that was proposed by Secretary Perry to FERC. That was a 
proposed rulemaking in order to address what he perceived as 
the problems and challenges of the retirements of a number of 
``fuel-secure resources.''
    That proposal went over to FERC, and FERC considered it and 
FERC made a decision. They decided that the proposal, as set 
forth, that a combination--that the record wasn't sufficient 
and that it did not meet their standards for being able to act 
under Section 205 or 206. And what they did is they rejected 
the proposal. But what they also did is that they also opened 
up a new docket in order to consider the issues that were 
proposed in there and it's currently open.
    So my role was primarily as the lawyer and as I've talked 
throughout in my introduction, I've had a number of roles as a 
lawyer and I've been fortunate enough to represent and to work 
on a number of important issues in the energy issue.
    The Chairman. I appreciate that response.
    Mr. Vela, let me ask you. We had an opportunity yesterday 
to discuss some of the workforce issues, the workplace issues 
and what the Park Service has encountered over a period of 
years and this is, unfortunately, a long-term pattern of sexual 
harassment and a hostile work environment. This has been 
substantiated in numerous IG reports.
    This is really a dark cloud over our National Park Service. 
You clearly are proud of the men and women that you work with, 
that you have an opportunity to supervise, but you are going to 
be in that position where you have an opportunity to change the 
culture within the National Park Service--and I think we both 
agree that the culture must be changed.
    You mentioned accountability in your opening statement, but 
if you can, detail to the Committee what you view this long-
term plan to fundamentally change the culture within the 
National Park Service when it comes to the workplace and 
workforce issues.
    Mr. Vela. Absolutely, Chair Murkowski, and thank you for 
your time yesterday. I enjoyed our visit.
    We have a responsibility and an obligation to make sure 
that all of our employees--permanent, seasonal, volunteer--have 
a workplace that treats them with the dignity and respect that 
they deserve. And I, if confirmed, would look forward to 
carrying out some further developments that the agency has been 
able to put into place that provide additional assets, if you 
will, to help us to address that.
    I think we're in a better place now to know what has taken 
place throughout the service. We have better reporting 
requirements. We have survey instruments. We've added 
additional subject matter expertise to help guide individuals 
who are making allegations through the process. We have more 
defined processes.
    But the thing that I want to make sure, if confirmed, is 
that we have accountability, accountability throughout the 
entire chain of command. It starts with the Director. The 
Director sets the tone. He or she sets the dynamics, if you 
will, to ensure that we do get that accountability.
    So I would look forward, Chairman Murkowski, if confirmed, 
to again, take what has been done to a higher level but to make 
sure that we have accountability throughout the process.
    The Chairman. Thank you. We would look forward to working 
with you to achieve just that.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair. There is almost 
not enough time to ask these three important nominees 
questions, but I will try to go quickly. So if you could help 
me with short answers, that would be great.
    I am going to start with you, Mr. Vela. In 2016 you were 
Superintendent of the Grand Teton and acquired 640 acres of 
state land within the park for the State of Wyoming and part of 
that was with the Land and Water Conservation Fund (LWCF). In 
your view, 
is the Land and Water Conservation Fund a good use of federal 
dollars, and do you oppose zeroing out federal LWCF funding?
    Mr. Vela. Land acquisition over the course of its existence 
and then through LWCF has benefited directly, and Grand Teton, 
Senator, was one of those benefactors.
    We were also able to, with the parcel in question that 
you're talking about, were able to also provide philanthropic 
support which helped to achieve our interest in acquiring that 
very significant property.
    So over the course of LWCF, land acquisition has played and 
has benefited and played a very important role in helping the 
Park Service to achieve its interests.
    Senator Cantwell. So you think we should fund it?
    Mr. Vela. The President has included it, supports it in his 
budget and has called for its reauthorization.
    Senator Cantwell. Thank you.
    Mr. Vela. Thank you.
    Senator Cantwell. Mr. McNamee--and I would like more 
opportunity, Mr. Vela, so hopefully you and I will have a 
chance to meet personally.
    Mr. Vela. It would be my pleasure.
    Senator Cantwell. Thank you.
    Mr. McNamee, on the FERC's decision to turn down the 
resilient pricing proposal by the Secretary, did they do the 
right thing?
    Mr. McNamee. I think that clearly the Commission acted 
within its authority. And I think what the Commission did is 
they recognized that resiliency was an issue that deserved 
further study, and that's my understanding in their order of 
why they opened up a new docket on the issue.
    Senator Cantwell. Do you think that you can meet the 
standards of just and reasonable rates if, in fact, that 
proposal went through and you actually raised prices on 
individuals? Would that be within just and reasonable rates?
    Mr. McNamee. I believe that FERC's examination of the issue 
is still outstanding.
    The issue, I think, needs to be, and what they're looking 
at is, what are the attributes necessary for resilience? And as 
FERC has done on a number of issues is, they've recognized that 
there's issues of price formation, there were determinations 
about some attributes weren't being allowed to compete and that 
wasn't just and reasonable, such as fuel storage.
    So I think FERC does its job of looking at what are the 
right attributes that are needed for the grid, and they do a 
good job of taking a hard look at the issues and trying to make 
those decisions.
    Senator Cantwell. So you think there could be a scenario 
under which resiliency or shortage of supply would make you 
believe that you should move forward on a proposal to mandate 
coal or nuclear power?
    Mr. McNamee. I would not go that far. I think that's 
something that would have to be based on the facts presented 
before them and the laws that are there.
    I know that NERC has made observations about the importance 
of essential reliability services, fuel assurance and 
generation and that those are issues that I know that FERC is 
supposedly considering as part of its resiliency docket.
    Senator Cantwell. I think it would be helpful if you could 
supply to the Committee information about what role you played 
in the actual formation of this proposal and details about 
that, but we can write some specific questions and get those to 
you. If you can answer those that would be very, very helpful 
about your previous role in this matter.
    Dr. Baranwal, I wanted to ask you specifically, the Pacific 
Northwest National Lab, one of our labs, is in the nuclear fuel 
cycle. Some very important work on material recovery and waste 
form development is being carried out there to improve our 
understanding of the nuclear fuel cycles and advanced reactor 
design, but also to enhance our waste characterization process 
and capabilities at Hanford. Are you familiar with this 
program?
    Dr. Baranwal. I'm not familiar with that exact program, but 
I am familiar, more so, with the advanced reactor work and the 
advanced materials development work that is being done at 
Pacific Northwest. I've been there a few times for visits to 
talk with the staff that are working in those areas.
    Senator Cantwell. Can you take a look at that specific 
program and give me some feedback on whether you think it 
should remain a priority within our system?
    Dr. Baranwal. I can do that.
    Senator Cantwell. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Cantwell.
    Senator Alexander.
    Senator Alexander. Thank you, Madam Chair.
    I have the same request Senator Cantwell had--five minutes 
of short answers would be helpful.
    I would like to observe to begin with, Dr. Baranwal, that 
for the fourth consecutive year the Congress has appropriated a 
record level of funding for the Office of Science which 
supports the national laboratories, including nuclear power, 
and I think that goes unnoticed by many people.
    Mr. Vela, let me go to you. On the Portman-Warner 
legislation, which Senator King and I also strongly support, if 
it doesn't succeed, how are you going to deal with the deferred 
maintenance backlog of $11+ billion?
    Mr. Vela. Well, thank you, Senator, for your support of the 
bill and of national parks.
    We have to find a way to appropriately address aging 
infrastructure.
    Senator Alexander. Yes, but it is four times your annual 
appropriation--I mean, that amount of money is four times your 
annual appropriation, right?
    Mr. Vela. Yes, sir.
    Senator Alexander. And your annual appropriation is used 
for salaries and other purposes?
    Mr. Vela. Absolutely, other operations.
    Senator Alexander. How much of your annual appropriation 
goes to, roughly, to maintenance, deferred maintenance?
    Mr. Vela. I can't give you the specifics. I'd be happy to--
--
    Senator Alexander. Well, like at the Grand Teton, what 
would it be--10, 5, 15?
    Mr. Vela. I can share with you that my maintenance backlog 
alone in Grand Teton is around $190 million.
    Senator Alexander. Yes.
    Mr. Vela. Our built asset is around $1.3-$1.5 billion with 
probably close to five million visitors which will be another 
record-breaking year.
    Senator Alexander. Yes.
    Mr. Vela. So what we will continue to do, Senator, is 
assess all means necessary, possible, to include philanthropic 
support to help us to address our most critical needs.
    Senator Alexander. To be a little bit parochial, the 
Smokies, the Great Smokies, has about $220 million of 
maintenance----
    Mr. Vela. Right.
    Senator Alexander. ----and twice as many visitors a year--
--
    Mr. Vela. Yes, sir.
    Senator Alexander. ----and the same sort of challenges.
    Senator Portman is a former budget director but the way all 
of this is constructed, I want to go back over--the maintenance 
backlog at the National Park is not really debt in the way we, 
I mean, it really is debt in the way we think about it.
    Mr. Vela. Right.
    Senator Alexander. It is not--and the money that we would 
propose to use to pay the debt is real money--I mean, it is not 
like other mandatory funding, sometimes we say, well, we will 
borrow money so that we can pay social security. We will borrow 
money so that we can pay Medicare. In this case, we are taking 
real money, right, from our revenues from energy drilling on 
public lands and using it to, in effect, pay down debt. Is that 
right?
    Mr. Vela. It's my understanding, sir, on interior lands, 
interior properties.
    Senator Alexander. Yes. And the program is only authorized 
for five years, so it is not forever.
    Mr. Vela. Right.
    Senator Alexander. The other thing I would like to ask you 
to confirm, if you agree that this is correct: there are other 
important programs that the Federal Government has, such as the 
Land and Water Conservation Fund and the Reclamation Fund, and 
payments to states and other smaller funds, but under the 
Portman-Warner legislation those accounts would be paid first, 
if I am characterizing it correctly. Now some still have to be 
appropriated.
    Mr. Vela. Right.
    Senator Alexander. But the money would go to those accounts 
before it would go to the National Park maintenance backlog. Am 
I correct in that sense?
    Mr. Vela. That would be my understanding.
    Senator Alexander. Yes. Let me move to Ms. Baranwal.
    I noticed I still have five minutes left. I appreciate the 
generosity of the Chairman on this.
    [Laughter.]
    This is very generous.
    [Laughter.]
    The Chairman. I am sorry, Senator Alexander.
    Senator Alexander. Chairman.
    But Ms. Baranwal----
    The Chairman. The Senator's time truly has expired.
    [Laughter.]
    Senator Alexander. Oh, has it? Oh, it did?
    The Chairman. But it was a good line of questioning so we 
allowed the continuation.
    Senator Alexander. Okay, it kept saying five minutes here. 
But I accept the ruling of the distinguished Chairman.
    Thank you, Mr. Vela.
    [Laughter.]
    Senator Heinrich. Mr. McNamee, in a hearing here in June I 
asked each of the FERC Commissioners who were here if there is 
currently an emergency requiring subsidies of coal and nuclear 
plants and none of the Commissioners indicated that there was a 
reliability emergency.
    So I wanted to ask you, not in terms of representing the 
Secretary or representing the President, but do you believe 
that there is an urgent threat to the resilience and 
reliability of the power grid that would justify FERC to 
intervene in the bulk power markets?
    Mr. McNamee. In terms of the issue of an emergency, that 
power, I think, is you're referring to in our conversation 
during that hearing with, Senator, Section 202c of the Federal 
Power Act. The Secretary currently has not issued a 202c, and I 
have no reason to second guess his determination about whether 
or not there is an emergency currently. And it does not appear 
at this point on a general nationwide basis that there's an 
emergency.
    Senator Heinrich. So that would be a no?
    Mr. McNamee. It's a no----
    Senator Heinrich. A qualified no.
    Mr. McNamee. ----only a no that I don't have access to all 
the information the Secretary does.
    Senator Heinrich. When you testified here in July you cited 
the President's directive to Secretary Perry to prepare 
immediate steps to stop the loss of so-called ``fuel-secure 
power resources'' to prevent impending retirements from 
impacting the resilience of the power grid and what, I believe, 
you referenced in terms of the President's view as the crisis 
on the grid. What is the status today of the response to the 
President's directive of June 1 to Secretary Perry?
    Mr. McNamee. My understanding is that it's in the inner 
governmental process. I've not been involved in that process 
for the past few months.
    Senator Heinrich. What was your previous role in preparing 
that response up to the time that you were no longer involved?
    Mr. McNamee. In terms of--I think you're referring to the 
leaked memo. I was not at the Department of Energy when the 
memo was drafted or leaked and when I returned to the 
Department, I looked at the memo and was trying to understand 
what the issues were, what the law was, but came to no final 
conclusions.
    Senator Heinrich. That was your only involvement then?
    Mr. McNamee. That's correct, sir.
    Senator Heinrich. Okay.
    What legal authority does FERC have to pick and choose 
generation technologies and fuels for retail power supplies?
    Mr. McNamee. I don't believe that FERC's role is to pick 
and choose resources. I think one of the great success stories 
has been the development of the wholesale markets. I think 
consumers have benefited. I think that FERC and the RTOs and 
the ISOs are constantly working to make sure that the markets 
function properly and they're constantly looking at, you know, 
new resources and how to better make the markets function, you 
know, that's why, you know, some of them develop capacity 
markets, why there are special reliability, you know, essential 
reliability services.
    But I think that FERC's role is really--their goal is to 
make sure that the markets function properly and that's really 
through just and reasonable rates and making sure it's not 
unduly discriminatory.
    Senator Heinrich. In February, FERC finalized a rule on 
energy storage participation in the wholesale markets. What is 
your view of the Commission's approach there, to reducing 
barriers and to allowing storage to compete on a level playing 
field with those other resources in competitive markets?
    Mr. McNamee. I think that storage is going to be one of the 
game changers that's going to take place on the grid. Once 
there is access to truly affordable utility scale storage, 
you're going to really see a transformation of the grid and, to 
be honest, it's kind of what makes me excited about this job is 
there's two really great things that are happening: one, 
there's the transition which is always a time of challenge and 
danger; and then there's how do we get to the next place? And 
it's not for FERC to choose, but it's to make sure that the 
markets work so that those opportunities are there.
    In terms of the specific rule that FERC has proposed, I 
believe it's under pending review, you know, they made the 
final issue and I think there's been pending rehearing, so I 
don't want to comment on the specific rule itself.
    Senator Heinrich. I understand.
    FERC also has a pending rule on participation of aggregated 
distributed energy resources in wholesale markets. I would not 
ask you to comment specifically on the rule itself but would 
love your views on whether or not you support the full 
participation of aggregated distributed resources in 
competitive wholesale markets.
    Mr. McNamee. The issue of distributed energy resources is 
one that, I think, that the grid is generally moving toward. I 
know there's complicated issues between depending on whether 
they're basically at the distribution level, whether they're 
behind the meter, how they're going to interact with the 
wholesale markets and there's a variety of issues where the 
states and the Federal Government through FERC is going to have 
to work it through.
    I don't think FERC specifically should be picking and 
choosing, but it should be, they should look at it just like 
any other resources, just like fuel, and they should give, you 
know, they should look at what are the opportunities and how do 
things work, but I think----
    Senator Heinrich. Just treat it like all the other 
resources.
    Mr. McNamee. It needs, it's a little bit more complicated 
than saying here's something that just bids in because of those 
complications at the state level with the distribution system 
and I don't want to prejudge, kind of, what the challenges are 
because I don't know.
    But I do know that it is somewhere that distributed energy 
resources are clearly something that are taking place on the 
grid and that customers are looking for them.
    Senator Heinrich. Okay, thank you.
    The Chairman. Thank you, Senator Heinrich.
    Senator Capito.
    Senator Capito. Thank you, Madam Chair, and thank all of 
you for your service to our country and future service.
    Mr. Vela, I would like to ask you--thank you, first of all, 
for coming to my office at the end of September to talk about 
National Park Service priorities in the State of West Virginia. 
As you recall, we discussed the interests of my constituents in 
re-designating the New River Gorge National River as a national 
park while ensuring the preservation of existing hunting and 
fishing, rights that are enshrined in the federal statute as it 
stands right now for the national river. Since that time, I 
have introduced legislation to do just that.
    So I, first of all, would like to ask you, after your 
confirmation, to pledge to me two things. Number one, that you 
will continue to work with me on helping us as West Virginians 
to work toward a re-designation of that area. We had a great 
meeting at home on this, and there is a lot of enthusiasm. So 
that is my first ask.
    Mr. Vela. I would look forward to doing that, if confirmed, 
Senator.
    And thank you also for your time and the meeting that we 
had as well.
    Senator Capito. And then a visit after you----
    Mr. Vela. Yes, ma'am.
    Senator Capito. Yes. We will do the bridge walk. We will go 
over the bridge.
    [Laughter.]
    Mr. Vela. I look forward to it.
    Senator Capito. I hope you are not afraid of heights 
because it is a little--it is a wonderful thing.
    Mr. Vela. Awesome.
    Senator Capito. But the path forward maybe, we have some 
ideas on whether we should do a national park feasibility 
study----
    Mr. Vela. Okay.
    Senator Capito. ----because we may end up looking at, as 
you described to me, a preserve-park combination bill where we 
can meet the questions of all folks involved. So I look forward 
to working with you on this issue.
    Mr. Vela. Likewise, Senator. Thank you.
    Senator Capito. Thank you.
    In July we passed, unanimously, S. 1573, the American 
Discovery Trail Act. This is a bipartisan Act that I worked 
with Senator Coons on which would give us signage on the 
American Discovery Trail in our national parks. I think there 
has been some issues with getting that signage put up. It is a 
source of concern I wanted to just call to your attention.
    Mr. Vela. Thank you.
    Senator Capito. Thank you.
    Dr. Baranwal, thank you for your visit as well. I am very 
proud of your accomplishments in an industry that does not have 
many women, and I look forward to you serving at the DOE.
    I would like to ask--we passed legislation in this 
Committee, it was enacted in our Omnibus, directing the DOE to 
support moonshot R&D goals in the nuclear space. You have been 
in this space for quite some years. What does that mean to you? 
And what are some examples of the things--we talked about some 
of the innovations that we did with smaller and more advanced 
nuclear. Is that one of the considerations you would put 
forward?
    Dr. Baranwal. Yes, thank you for the question, Senator. And 
it was a pleasure to meet with you the other day.
    Yeah, so a lot of the work that we have done in the nuclear 
industry one might consider a moonshot a lofty type of goal to 
strive toward. And certainly the smaller reactors, also known 
as microreactors, that many companies are working on to develop 
could be considered one of those.
    The beauty of that is that we're starting to see the 
application of a lot of innovative technologies from outside of 
the nuclear industry and leveraging that to benefit our 
industry, to help those types of moonshot goals, to make that 
goal become much more of a reality.
    Senator Capito. Part of our discussion was talking about 
the mining industry----
    Dr. Baranwal. Yes.
    Senator Capito. ----and you mentioned to me that some 
mining interests are, sort of, looking at some of these smaller 
reactors too, since mining, in and of itself, is so energy-
intensive to use nuclear energy, maybe, as the power source to 
move forward. Could you talk about that a little bit?
    Dr. Baranwal. Absolutely.
    So at some meetings that I've been in over the past few 
months, I've been speaking to folks that are in the mining 
industry, talking about how energy-intensive that industry is 
and talking about the application of these smaller reactors to 
help fuel, if you will, that industry so that as mining 
equipment is moved around and operations are mobile, some of 
these reactors are certainly looking at that type of 
application and would lend themselves to that type of 
application.
    Senator Capito. Sounds like an interesting conversation and 
something worth looking into.
    Mr. McNamee, we had a hearing in EPW about cooperative 
federalism and the way the states and the Federal Government 
are reacting, particularly in the natural gas space. I would 
like to ask you, I know that you have a history of working for 
the states and for advocating for a robust tenth amendment. Can 
you briefly describe your views on these issues and how do you 
achieve the right balance between, if you can solve this 
problem, states' rights, and national interests?
    Mr. McNamee. I think that's a tension that's built into our 
constitution, the tension between the states and the Federal 
Government. And I think that Congress, in its wisdom, decided 
when they were passing things like the Clean Water Act and 
other things to encourage cooperative federalism to ensure that 
the states' views on certain issues are heard and that there's 
also federal policy on it.
    And I think that those are things that have to be worked 
out on a case-by-case basis because I think it's important that 
the interests of the states are considered. I know that there 
is federal policy in particular projects. And I think what's 
important is that you look at what the facts are on the ground 
and that you have information and that those decisions are 
based on that. And I know there's many different agencies that 
have to work together. I know that members of this Committee 
have tried to streamline the way those decisions are made, 
especially at the federal level.
    Senator Capito. Thank you.
    The Chairman. Thank you, Senator Capito.
    Senator Wyden.
    Senator Wyden. Thank you very much, Madam Chair.
    Mr. McNamee, you played a key role in developing the legal 
underpinning of a Trump energy bailout that was so flawed every 
member of the Federal Energy Regulatory Commission rejected it.
    I have been Chairman of this Committee and I haven't really 
seen anything quite like that and I think I know why. It would 
have benefited a handful of companies, most of them in the 
northeast, while jacking up ratepayers' costs billions of 
dollars.
    Now the President wants to put you on the Commission that 
rejected the plan you wrote. It looks to me, and I want to get 
your response to this--this is not like having the fox guard 
the chicken coop; this is like putting the fox inside the 
chicken coop.
    So my question to you is, tell the Committee why you should 
be trusted to do anything differently than you did earlier if 
you become Commissioner?
    Mr. McNamee. As to the issue, I think, ultimately, is 
whether I'd be an independent arbiter, to be able to look at 
the facts and the law, make an independent choice. I have no 
doubt that I can do that and that it won't be influenced by 
politics. I understand the difference between my role as a 
lawyer, when I worked on the Secretary's proposal under Section 
403 of the DOE Organization Act, and what the role of FERC is.
    Now I also recognize that FERC rejected the proposed remedy 
but I also recognize that they unanimously agreed that it was 
an issue that needed to be looked into further. So I can't 
comment on each specifically further about what the end result 
of that would be because there's so many facts. I think there's 
been hundreds of comments filed and thousands of pages.
    And I think that FERC has a tradition of making decisions, 
not based on whether they're Republican or Democrat, though 
they may by nominated as such, but making it based on working 
together and trying to figure out what's the right thing to do. 
And my pledge to you is that I will work in that fashion.
    Senator Wyden. So you wrote this plan. Government lawyers 
deal with policy all the time. I believe you ought to recuse 
yourself if you are chosen for this position on matters that 
deal with the specifics of what got such a resoundingly 
negative response earlier. I mean, the combination of helping a 
handful of companies while jacking up rates billions of 
dollars, that is pretty bad stuff. I am going to want to talk 
to you if you get confirmed, but I believe you ought to recuse 
yourself given your role in the initial proposal.
    Now let me turn, if I could, to you for a moment, Mr. Vela. 
As you know, Secretary Zinke has been subject to a jaw-dropping 
array of federal investigations raising very substantial 
ethical concerns about what has gone on at the Interior 
Department. Suffice it to say, we have seen a pattern of other 
officials involved in this. It is kind of like when you listen 
to all this, somebody just lost the ethical compass.
    What I would like to have you tell the Committee is, if you 
are appointed Director of the National Park Service, what 
specifically would you go in there and change in order to deal 
with this spree of unethical behavior that we are reading about 
in the news media pretty much constantly?
    Mr. Vela. Thank you, Senator, for that question.
    Over my nearly 35 years of public service, sir, at the 
state and federal level, I have been guided, as I mentioned in 
my opening remarks by the guidance of my grandfather and my 
parents about pursuing moral and ethical objectives and 
interests.
    I think as a leader, as a Senior Executive in the Federal 
Government, sir, I think it starts with the individual. And, if 
confirmed, setting the example of the Director, as Director, 
setting the bar as to what is not acceptable. I think we 
achieve that through training, further training. I think we do 
that through accountability. But it starts at the top and, if 
confirmed, I will provide that leadership.
    Senator Wyden. I will just tell you, respectfully, sir, I 
asked specifically what you would change and all the words that 
you just offered me are certainly ones that I would agree with. 
I think virtually anybody would. It still does not tell me what 
specifically you would do to change these ethical practices 
that are so destructive to this important agency.
    My time is up. I am going to hold the record open to get an 
answer to what you would specifically change. But I will not be 
able to support your appointment unless there are specifics 
given about what you would change because we cannot allow this 
to go on any longer.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Wyden.
    I had mentioned at the outset that if members have 
additional questions or are seeking additional responses, we 
would like to try to get them by close of business today.
    Let's go to Senator Daines.
    Senator Daines. Thank you, Chair Murkowski and Ranking 
Member Cantwell, for prioritizing today's hearing on three 
exceptional nominees, all very important to both our public 
lands and our nation's energy security.
    As the Chair of this Committee's Subcommittee on National 
Parks, I am going to start with Mr. Vela. You have all heard 
from others on this Committee that our national parks make us 
uniquely American. Europe has their castles and their good 
food. America, we have our national parks. We have our public 
lands. That is why I believe it is imperative we take care of 
them and the workforce that supports them.
    Mr. Vela, you spent some time at department headquarters on 
the workforce department with direct oversight over employee 
matters. You have also worked your way up through the Park 
Service over 29 distinguished years. Recent findings of sexual 
misconduct in the workplace and other issues with the workplace 
environment in our national parks are completely unacceptable.
    While we all love to play in our national parks, we must 
also make them a great place to work. Workforce environment 
starts at the top, and I know Secretary Zinke has taken this 
issue head-on at the Department and its policies have been 
updated. We all want a zero-tolerance policy, and Park Service 
employees need to feel safe and enjoy waking up and going to 
work every day.
    The question is, what have you learned from your time at 
the Department on ways to improve the employee work 
environment, and how will you be carrying forward some of these 
policy changes moving forward? I understand you addressed this 
earlier. You talked about how it needs to start with 
accountability. Culture change starts at the top. I completely 
agree, as somebody who has managed business organizations for 
28 years and now, in public service, it really starts at the 
top. The tone and tenor at the top matters and that is where it 
starts.
    Mr. Vela. Well said, Senator, and thank you for that.
    What I've learned, and even in the serving as Associate 
Director of the Workforce, was that we need to do a better job 
of learning what was taking place out in the field because at 
that time we didn't have accurate or sufficient reporting 
processes and protocols so that the leadership in Washington 
had a sense for what was happening at a park; we do now--better 
reporting, better transparency.
    But I'm not certain that we're quite there yet on the 
accountability. And so, what I've learned, Senator, is we've 
come a long way in a short period of time and I give the agency 
credit. But every leader in the organization has to own this, 
you know. And I want to focus more on the performance 
evaluation process because during the mid-year and at the end 
of a given year, we have a chance to reflect on what you did as 
a leader. And if you didn't own the culture and if you didn't 
mitigate appropriately and change the dynamics, you will pay a 
price. And I have experience in dealing with that. So I think, 
on the accountability piece, that there's more that we can do. 
We know how to go about doing that and, if confirmed, I look 
forward to achieving that.
    Senator Daines. Thank you.
    You know, you--having led some of our most visited national 
parks, the Grand Teton, you are Regional Director for the 
Southeast--you have seen firsthand the challenges visitation 
brings and the record visitation levels, the challenges it 
brings regarding Park Service infrastructure.
    You spoke earlier about the importance of enacting Senate 
bill 3172 with Senator Alexander. We are very proud of that 
bill. Talk about a great example of working with Senator 
Portman,----
    Mr. Vela. Absolutely.
    Senator Daines. ----Senator Alexander, working as 
Republicans with Senator King, Senator Warner. I chair that 
Subcommittee. This is, it is great chemistry. We actually work 
together, egos set aside, and are solving a really important 
problem and we need to get this bill passed.
    Mr. Vela. Right.
    Senator Daines. So we are pushing hard until we get this 
through in the lame duck.
    In fact, I was just down in Gardiner. I got to meet Cam 
Sholly there, our new Superintendent.
    Mr. Vela. Awesome.
    Senator Daines. It is named after Cory Gardner.
    [Laughter.]
    Senator Gardner. It is a great town.
    Senator Daines. It is a great town, Cory, but I get Cam 
Sholly, who actually was a Gardiner kid. He went to school down 
there, once upon a time, and now he has come back as 
Superintendent of Yellowstone National Park. We are really glad 
to have him on board.
    Mr. Vela. Thank you.
    Senator Daines. But we talked about these record levels of 
visitation and what is going on and the stress it is putting on 
our infrastructure.
    We are working in Congress to address some of the deferred 
maintenance backlog, and Senator King said it well--he says, 
``deferred maintenance is debt, and we've got to address 
this.''
    In the interim, what are some ways to improve Park Service 
infrastructure that can be done now in anticipation of getting 
this bill passed?
    Mr. Vela. Well, I want to thank all the members of the 
Committee for your support and your love of national parks. 
It's important that we recognize that.
    And I think that what we have to do is to really explore 
everything that's in the realm of possibility. How can we 
leverage further internal capacity, philanthropic capacity, 
gateway community capacity, to come together to help address 
these issues which are critical?
    Visitation in the national parks is now, through the 
system, is well over 330 million visitors and growing. So we 
have an obligation and responsibility to access what's in the 
realm of possibility today and with the bill's passage, into 
the future because it's extremely important as it deals 
directly with the visitor experience as you clearly 
articulated.
    Senator Daines. Thank you.
    Mr. Vela. Thank you, sir.
    The Chairman. Thank you.
    Thank you. Senator King is deferring to Senator Cortez 
Masto. Is that correct? Okay, thank you.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you very much and thank you to 
my colleague, I appreciate it.
    Welcome, congratulations to all of you.
    Let me start, I know I have five minutes so I am just going 
to jump right into this.
    Dr. Baranwal, thank you so much for meeting with me 
yesterday. As you know, the DOE Office of Nuclear Energy has a 
prominent role in managing the Yucca Mountain licensing 
proceedings and the storage programs and will also provide 
Yucca-related information for future budget requests. Have you 
ever been to Yucca Mountain?
    Dr. Baranwal. I have not, Senator.
    Senator Cortez Masto. And have you, based on your previous 
experience or in your preparation for this position, formed an 
opinion about the safety of storing spent nuclear fuel and 
high-level radioactive waste at Yucca Mountain?
    Dr. Baranwal. My expertise has always been in the middle of 
the fuel cycle, so I'm not very well versed at the early stages 
such as the mining nor am I very well versed on the back end on 
the used fuel and waste side of things, so----
    Senator Cortez Masto. No, that would be a no.
    Dr. Baranwal. No.
    Senator Cortez Masto. Thank you, I appreciate that.
    How much does science factor into your decision-making?
    Dr. Baranwal. It's weighed very heavily. I'm a scientist, 
and I look at the evidence.
    Senator Cortez Masto. And how much consideration should be 
given to concerns of the local community in your work?
    Dr. Baranwal. I think the concerns of localities and states 
and tribes should, those voices absolutely should be heard.
    Senator Cortez Masto. Okay.
    And if a community does not provide their consent, what 
should take precedence, the community's concerns or consent or 
what the DOE and the Administration decides they think should 
be done?
    Dr. Baranwal. I think when it comes to that type of 
decision, again, the voices should be heard, but I would work 
with what Congress decides and passes as law and would follow 
that.
    Senator Cortez Masto. Okay.
    My understanding is you have not yet had the opportunity to 
read the Blue Ribbon Commission's report on the storage of 
spent nuclear fuel and high-level radioactive waste at Yucca 
Mountain. Is that correct?
    Dr. Baranwal. That is correct.
    Senator Cortez Masto. And is it your intention to explore 
this and take a look at what is happening there at Yucca 
Mountain as you move into this position, if you are appointed?
    Dr. Baranwal. If I am confirmed, yes.
    Senator Cortez Masto. Can I get a commitment that if you do 
get confirmed, you will come out to Yucca Mountain and you will 
listen to both sides, look at the science and let the science 
decide, really, what should happen there and not a political 
decision that was made years ago that negates the safety and 
the health of the people that live there and the safety and the 
national security interests of this country?
    Dr. Baranwal. Should I be confirmed I very much look 
forward to visiting Yucca Mountain.
    Senator Cortez Masto. Thank you. I appreciate that.
    Mr. McNamee, I am going to jump back to some questions that 
were asked of you with respect to the grid resiliency pricing 
proposal.
    Would you recuse yourself if this were to come before FERC 
again and you are nominated on any issue relating to the grid 
resiliency proposal?
    Mr. McNamee. I understand that the docket in which that 
proposal was offered has been closed and I need to consult with 
ethics counsel about whether or not I could further participate 
in the issues.
    Senator Cortez Masto. Why do you need to, I mean, you were 
involved in the proposal drafting, correct?
    Mr. McNamee. Well, in terms of the specific proposal, 
clearly that specific proposal was proposed and I would not be 
able to be involved in that but that docket has been closed. 
The issuance of resilience, generally, are constantly coming 
before FERC and so I'd need to consult with ethics counsel to 
understand what I could or could not participate in.
    Senator Cortez Masto. So just for my clarification, if it 
comes back in a manner like it was proposed to you, 
specifically, the grid resiliency proposal to provide support 
for failing coal and nuclear plants, you would recuse yourself?
    Mr. McNamee. I don't know if anything is going to be 
proposed, will be proposed or what format, so I can't say what 
I would or wouldn't----
    Senator Cortez Masto. I don't know whether it is going to 
be proposed either. I am just saying if it comes before you, 
would you recuse yourself?
    Mr. McNamee. Well, I commit I will talk with ethics counsel 
to find out if I need to recuse myself.
    Senator Cortez Masto. Okay.
    You are an attorney, correct?
    Mr. McNamee. That's correct.
    Aren't you, under the rules of professional responsibility, 
supposed to recuse yourself on issues or areas where you have 
worked on previously as an attorney?
    Mr. McNamee. That's one of the reasons I'd want to talk to 
ethics counsel because there's also additional rules that you 
have to follow in relation to rules that Congress----
    Senator Cortez Masto. But as an attorney, that is what you 
are required to do under the rules of professional 
responsibility.
    Mr. McNamee. It deals with specific matters and specific 
parties.
    Senator Cortez Masto. Okay, thank you.
    Mr. Vela, thank you also for taking the time to meet with 
me. I appreciate it.
    There is one question that I have for you and I know there 
was, I think, on August 7th the National Park Service issued a 
proposed rulemaking that would revise the Park Service's 
protest permitting process regarding demonstrations at the 
National Mall Memorial Parks and the President's Park in DC. 
Were you involved in the crafting of this rule at all?
    Mr. Vela. No, Senator.
    Senator Cortez Masto. Okay.
    And yes or no, do you believe that citizens should be 
charged a fee for holding peaceful protests in our nation's 
capital?
    Mr. Vela. There is a process where that is provided to 
cover some of those costs, but Senator if confirmed, I'd like 
to learn more about what was proposed, the rationale, but also 
to assess the substantive comments that have been received 
through the public comment period. I would look forward to 
doing that, if confirmed.
    Senator Cortez Masto. Thank you.
    Mr. Vela. Yes, ma'am.
    Senator Cortez Masto. I appreciate that.
    I notice my time is up. Thank you so much.
    The Chairman. Thank you.
    Senator Portman.
    Senator Portman. Thank you, Madam Chair.
    This is going to be a lightning round here because, 
although I have enjoyed being here this morning, I now have a 
hard stop at 11:30, so I am going to run off for another 
meeting.
    First, Mr. Vela, you know how strongly I feel about our 
parks and trying to deal with this deferred maintenance 
backlog. I am also, as you know, very pleased that you are 
willing to step up. I think it is great. You have the 
experience, the background as a career Park Service employee, 
and I think you have responsibly handled some big 
superintendent jobs, including your current one. Quick 
question.
    Mr. Vela. Yes, sir.
    Senator Portman. Are you fully on board with the Restore 
Our Parks Act and will you help us get it done?
    Mr. Vela. I am, sir, and thank you for your support on the 
bill.
    Senator Portman. One of the things that I run into as I 
talk to my colleagues about it--and Senator Alexander did a 
terrific job talking about it, Senator King is going to talk 
about it in a minute, I know Senator Daines did a great job 
talking about it--we have unbelievable support here on this 
Committee and then, of course, Senator Warner off the 
Committee. But one of the things I am hearing from my 
colleagues is, is there really a good accounting of what the 
deferred maintenance needs are, and are there good accountings 
of what is most urgent?
    Do you believe that that already exists, number one? I know 
it does in Ohio because I spent some time with our parks there, 
as you know, our great parks in Ohio. But do you believe that 
is true nationally and, if not, are you willing, if confirmed, 
to be sure that we have an accurate accounting?
    Mr. Vela. Absolutely, Senator. I think we have an 
obligation and responsibility to ensure full transparency and 
accountability.
    Senator Portman. Excellent.
    Fees--there is a proposal to increase some fees by 2020. As 
you know, I am also the author of the Centennial Act and we are 
putting a little money against deferred maintenance, about $120 
million over the next five years, roughly.
    Mr. Vela. Right.
    Senator Portman. Not enough. And that comes from $1.00 
public money matched by $1.00 private sector money. We have 
exceeded that match, as has the National Park Foundation and 
their match, which we also have as a part of our legislation 
from two years ago.
    But fees always come up among some of my more fiscally 
conservative colleagues. Why can't we increase the fees----
    Mr. Vela. Right.
    Senator Portman. ----to be able to pay for some of this 
deferred maintenance? Again, we are already doing some of that 
and you already have a proposal to increase some fees by 2020.
    There are a bunch of national parks that charge no fees at 
all. There are other parks, like your current park, Teton, 
Yellowstone, Yosemite, some of the great parks that do charge a 
fee, but the fee is a lot less than, let's say, taking your 
kids to a movie.
    Mr. Vela. Right.
    Senator Portman. What do you think about fees?
    Mr. Vela. I think fees play a role, and I think that what 
we need to do as we tackle the challenges and interests of a 
second century of managing our nation's most special places 
that we need to take a hard look at all options.
    But at the same time and in the same breath, need to make 
sure that who may we be excluding from the process, who don't 
have the ability to pay additional fees. So I think those 
interests are equally compelling and equally important.
    Senator Portman. You talked about your experience going to 
the parks for the first time and your folks probably view that 
as a very cost-effective vacation, which it is for a lot of 
families in America. But I do think this is an issue that is 
going to come up in the context of our Restore Our Parks Act, 
and I think we need to be able to address it responsibly.
    Mr. Vela. Right.
    Senator Portman. Again, you do have a fee schedule update 
and the question is whether there should be, perhaps, some more 
units to come under that, in my view.
    Again, thank you for your support of this. We have to get 
this deferred maintenance backlog, almost $12 billion, handled. 
It is the right thing to do from a fiscal responsibility point 
of view. There is a compounding effect of this when you don't 
fix the roof, the dry wall, as happens in Ohio, then it becomes 
moldy. You have a huge cost that could have been avoided had 
you just taken care of the deferred maintenance backlog.
    Mr. Vela. Well said, Senator. Thank you.
    Senator Portman. Quickly, for Dr. Baranwal, the American 
Centrifuge Project in Ohio was discontinued in 2015. This is at 
the Piketon Plant. As you know, the Portsmouth Gaseous 
Diffusion Plant in Piketon, Ohio, is now being cleaned up and 
the Obama Administration chose to stop the future project which 
is a new centrifuge technology in 2015. Big mistake, in my 
view, big mistake. We now have no ability to have a 
domestically-owned American source of enriched uranium. Have 
you looked into this yet and what do you think about it?
    Dr. Baranwal. I have not had the opportunity yet, Senator, 
to look into that project. What I am aware of is that the 
companies that are developing new technologies and advanced 
reactors will have a need for what's called high-assay, low-
enriched uranium and it would be good to have a domestic source 
of that fuel supply.
    Senator Portman. Well, I am glad to hear you say that. I 
hope you will come out to Piketon.
    Would you commit to coming out and taking a look at the ACP 
facility that is now standing vacant that can provide, 
immediately, the ability for us to get back into the enriched 
uranium business?
    Dr. Baranwal. If I am confirmed, I look forward to a visit.
    Senator Portman. Great, thank you very much. We cannot rely 
just on Chinese, Russian and French product. We need to have 
our own, and I am glad you agree with that.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Portman.
    So it is Senator Smith's turn but, in the just continuing 
cooperation by colleagues on the other side here, she is going 
to defer to Senator Manchin. Is that correct?
    Senator Manchin. That is what we do best on this side.
    [Laughter.]
    The Chairman. It is excellent. We love it.
    [Laughter.]
    Go ahead, Senator Manchin.
    Thank you, Senator Smith.
    Senator Manchin. Thank you, all three of you, for putting 
your name up to represent our great country. I appreciate that.
    Mr. Vela, we have had a chance of getting to know each 
other and I really appreciate it very much. I think you are an 
excellent selection.
    Mr. Vela. Thank you, sir.
    Senator Manchin. With that being said, I noticed--I am one 
of the co-chairmen of the Sportsmen's Caucus, Congressional 
Sportsmen Caucus, and hunting is something I take very 
passionately.
    I agree with my colleague, Senator Capito, on a national 
park designation for the New River Gorge National River, but I 
have concerns. I have concerns about the hunting. I do not see 
where we have ever allowed access to hunting in the culture 
that we have in the National Park System.
    And we were looking at a compromise--a national park 
preserve. Denali has a national park preserve. You have, in 
Grand Teton, your national park, limited elk reduction, but so 
many shells, so many shots--that is not how we hunt.
    Mr. Vela. Right.
    Senator Manchin. When we go, we go.
    [Laughter.]
    Mr. Vela. Excellent.
    Senator Manchin. I think you got me, right? You know where 
I am coming from.
    Mr. Vela. Yes, sir.
    Senator Manchin. What is your recommendation? How do we 
best navigate this? We want the people to come enjoy our 
beautiful State of West Virginia.
    Senator King. He even shoots pieces of legislation.
    [Laughter.]
    Senator Manchin. When I can't find the elk, legislation is 
not safe.
    Senator Smith. Madam Chair, I would like to reclaim my time 
here.
    [Laughter.]
    Senator Manchin. So if you could just give me some advice 
and comments.
    Mr. Vela. Yes, sir, Senator. It's good seeing you again.
    I think that, first of all, I do believe in if the 
tradition, those traditional uses are being done, hunting in a 
national park, it's part of enabling legislation. It's 
something that we support.
    But if confirmed, sir, I would be very interested in having 
further conversations, specifically in addressing your 
interest.
    Senator Manchin. The reason I am saying that is I know the 
passion in my state and the culture in my state, and if that is 
limited or taken away, we do not need to get into this because 
we all want the same thing. We want a national park 
identification.
    Mr. Vela. Right.
    Senator Manchin. But also preserving----
    Mr. Vela. Absolutely.
    Senator Manchin. ----our traditional rights.
    So if you can help us navigate, and Senator Capito and 
myself work very well together.
    Mr. Vela. Right.
    Senator Manchin. We can maybe make this happen without 
getting people all worked up.
    Mr. Vela. It would be my pleasure, sir.
    Senator Manchin. And if I can, to Mr. McNamee.
    First of all, I am probably the only one on my side here 
who appreciates where you are coming from, and I understand 
that. And let me explain to my colleagues.
    Basically, in the PJM system, 88,000 megawatts we produce 
and that is, you know, our quadrant. Of that, 56 percent comes 
from coal and nuclear. So we are concerned about reliability in 
my quadrant. Other parts of the country are a little different 
and I respect that. I want to work with them and we are moving 
also, but we just cannot get there.
    That was the reason we have asked for the Defense 
Authorization Act on that to protect the reliability on that. I 
appreciate that and I would think that you would be able to 
look at that as far as the delivery of how power goes to 
different households in different parts of the country and make 
your decisions based on the need that we have and what we are 
dealing with.
    In West Virginia, our prices have gone from $0.06 to $0.08 
per kilowatt-hour. We are up to $0.1139 and we are still 
depending on coal 90 percent. It is being driven by all the 
regulations. It has driven a lot of the coal-fired plants out 
of operation. We are in a conundrum here, and we are trying to 
work through that. I would hope that you would continue to look 
at the areas that have the need of reliability in that manner, 
sir.
    Do you think--I mean, basically, you have answered it 
before--I know there is not a problem. I appreciate your 
position, that is what I am trying to say.
    Mr. McNamee. Thank you, Senator.
    Clearly, the challenge is that the people of West Virginia 
have had both from an employment side and in terms of electric 
prices are substantial and I know that you have been very 
forceful in trying to make sure that your constituents and the 
people that rely on you for support are heard.
    Senator Manchin. Let me just say, if I can finish up, Dr 
Baranwal, thank you so much for your expertise you bring to 
this. I continue to have serious concerns with some of our 
civil nuclear cooperative agreements with other countries, in 
particular, China, as you know.
    There has been media reports as recent as last month that 
China is stealing nuclear-related technology from American 
firms and using it for purposes such as powering its submarines 
and other military uses. In October, the Department of Energy 
updated the U.S. policy framework on civil nuclear cooperation 
with China.
    What are your thoughts? Last year we exported $170 million 
in nuclear exports to China which has a large and expanding 
economy for nuclear exports. What are your thoughts on the 
updated framework on that since they are using it not for the 
intent that we are sharing?
    Dr. Baranwal. So my experience has been with numerous 
United States companies and the role that I have in my current 
position as Director of GAIN is to help the United States come 
back to the number one position in nuclear technology 
leadership.
    And I'm not deeply familiar with the recent policy that has 
been put forth, but at a very high level I understand that 
companies from China who are wanting to import our technology 
will be reviewed on a case-by-case basis, very specifically. 
And I, again, from a high-level understanding of this new 
policy----
    Senator Manchin. [Off mic]
    Dr. Baranwal. ----and if that is indeed the case, I am in 
agreement with the policy to review each company that's 
requesting that, requesting our technology on a case-by-case 
basis.
    Senator Manchin. Thank you very much. Thank you all.
    Dr. Baranwal. Thank you.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Well, thank you very much, Madam 
Chairman.
    Good morning, welcome to all of you and congratulations to 
all of you.
    Superintendent Vela, good to see you again. Nice to visit 
with you earlier this morning and yesterday afternoon. Welcome. 
I had a chance to speak with you previously as well about the 
need to keep the Moose Wilson Road open, accessible and safe 
for local residents and park visitors. I know you are very 
familiar with the situation. You know Yellowstone and Grand 
Teton National Parks already face significant transportation 
issues, so I think the park must effectively address existing 
and emerging challenges. All parks do.
    But to me, in terms of what is going on in Wyoming, include 
ensuring the safety of cyclists, pedestrians, as well as 
wildlife. It is my understanding that the park is proceeding 
with paving a portion of that road next year. I think that 
fails to resolve other critical issues raised by the local 
community.
    I would just ask, if confirmed, would you work more closely 
with the local community to address all the safety and 
accessibility needs of the gateway community now rather than in 
an additional process several years down the line?
    Mr. Vela. Absolutely, Senator.
    And I want to thank you for the support you've given to me 
as Superintendent over the past five years. It is greatly 
valued and appreciated and the guidance on conversations just 
as you've articulated.
    Senator Barrasso. I want to talk about some of the 
additional needs of the Park Service. It is no secret that the 
National Park Service faces billions of dollars in deferred 
maintenance, a significant portion of which is roads.
    I will commend you, because we talked about the numbers in 
Wyoming in deferred maintenance when you were a superintendent 
of Grand Teton National Park.
    Mr. Vela. Right.
    Senator Barrasso. Deferred maintenance actually went down 
because of the good job you were able to do with making sure 
that the resources were used more effectively, as well as help 
from some outside groups wanting to participate.
    Mr. Vela. Thank you.
    Senator Barrasso. Currently, the National Park Service is 
tasked with managing--hard to think of this as the National 
Park Service--but the George Washington (GW) Parkway and the 
Baltimore-Washington Parkway. Both have become major community 
and commuter highways. Their function, to me, as units of the 
Park Service, has really fundamentally changed over time. It is 
not, I think, what most of us think of as the National Park 
Service.
    Mr. Vela. Right.
    Senator Barrasso. In June, the Department of the Interior 
and the State of Maryland signed a general agreement to explore 
potential management alternatives for this Baltimore-Washington 
Parkway. Would you urge the Secretary to undertake a similar 
effort to evaluate future management alternatives for the GW 
Parkway as, again, a part of an effort to improve resource 
management for the Park Service as needed?
    Mr. Vela. Yes, sir, if confirmed, and having been the 
former superintendent of the George Washington Memorial 
Parkway, I would look forward to having conversations on those 
and related matters.
    Senator Barrasso. Mr. McNamee, if I could, you know, 
Wyoming leads the nation in coal production. Coal mining 
supports thousands of excellent jobs throughout the state and 
provides a major source of revenue at the local and state 
level. Coal-fired generation has steeply declined in recent 
years due, in large part, to the Obama Administration's anti-
coal agenda but also competition with renewable energy 
subsidies as well as low natural gas prices.
    Coal is a critical component of the electric grid 
reliability. The coal-fired power plants can store the fuel 
onsite. They can use this dependable fuel 24/7 in terms of 
baseload energy generation. For these reasons, I believe coal 
must remain an integral part of our baseload fuel supply. Could 
you talk for a bit about the importance of coal within a 
diversified fuel mix?
    Mr. McNamee. Currently, coal provides about 26 percent of 
the electric generation in this country. So clearly, it 
currently provides a significant portion.
    I also understand in communities like yours and Senator 
Manchin's that coal is not only just about the electricity it 
provides, but it's also about the jobs that are important to 
your constituents.
    I think in terms of the future of coal, I think what FERC's 
role is going to be is making sure that the markets perform and 
that they're able to form in an open and clear manner.
    I think the fundamental thing of markets and what FERC is 
primarily responsible for is ensuring that a good market sets 
prices and allows the market to set the prices and allocate 
resources.
    Senator Barrasso. Thank you.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Barrasso.
    I don't know, it is a toss-up now. Who wants to go?
    Senator Smith, I think you have deferred a couple of times.
    Senator Smith. Thank you very much, Madam Chair, and to my 
colleagues and thanks to the three of you here today for 
presenting yourselves and for your willingness to serve. I 
greatly appreciate that and also to your families.
    I am going to just try to touch on a few issues that my 
colleagues have also touched on. I would like to start with Mr. 
McNamee.
    Mr. McNamee, in an Earth Day editorial this year, you 
highlighted the role that fossil fuels have played in improving 
human life and our food supply, and I agree with you on that. 
But you also went on to say that some suggest that we can 
replace fossil fuels with renewable resources to meet our 
needs, but they have never explained how.
    As I am grappling with your ability to be a neutral arbiter 
of the facts and this very important role at FERC, can you just 
explain for me how you would do that given what appears to me 
to be a bias?
    Mr. McNamee. I think that as you also note in that article 
that I also made the observation that renewables are something 
that, of course, we should consider. In fact, in my career I 
worked as a lawyer to help get three utility scale solar 
facilities built in Virginia, also worked on renewable 
portfolio standards for utilities both in Virginia and North 
Carolina.
    So I understand the important role that renewables can play 
in our electric mix. And, in fact, currently, you know, 
currently fossil fuels are providing 62 percent of the electric 
power generation, but that doesn't mean that you don't have 
renewables and that there aren't opportunities for renewables 
to grow.
    I think the primary thing for FERC is to make sure that 
they're not picking and choosing what the resources should be 
but ensuring that the markets are able to function so resources 
can compete and that the market decides what's the right 
resource. And I think that's really, primarily, what FERC's 
role should be.
    Senator Smith. I was just looking at a leading model of 
electric sector in Minnesota which shows that the lowest cost 
mix of sources in my state could be over 90 percent renewables. 
This is an issue of great importance to me and to my state and 
I would just observe that though we talk about the free market 
picking and choosing, we also have all sorts of incentives, tax 
incentives and others, that favor one source over another. So 
this remains, I will just say it remains a source of concern 
for me.
    Mr. Vela, I am so happy to have a chance to meet you and I 
so appreciate the experience, the decades of experience that 
you bring to our most precious places that we share together 
and especially your role as a ranger and a supervisor. I think 
that this experience is going to be a huge asset as you grapple 
with, as you talked about and some of my colleagues have as 
well, some of the cultural issues in the national parks.
    I appreciate the comments that you have made so far. In my 
experience managing a large and highly decentralized 
organization, the real challenge is figuring out how to get the 
leadership that you need in all of those independent and far-
flung organizations to change.
    Mr. Vela. Right.
    Senator Smith. Could you just tell us a little bit about 
what you have observed about how to change the leadership to 
get the cultural change you need?
    Mr. Vela. Well, thank you for those comments, Senator. I 
really appreciate them.
    I've held nearly every leadership position in the Park 
Service, and I've learned a lot as a result of that. I think 
for me, and if confirmed as the next director, is setting the 
example, setting the expectations and ensuring that we get the 
outcomes that we're looking for. For example, that we're 
addressing the deferred maintenance. It was asked previously, 
do we have a game plan? We will develop--but we can also draw 
upon previous experiences.
    The other issue is how do we effectively address the 
visitor experience?
    And for me, another very pressing issue is how do we build 
the next generation of conservation stewards and workforce?
    Senator Smith. And make that a more diverse group of 
individuals.
    Mr. Vela. Absolutely, Senator, absolutely, to widen and 
increase that tent.
    What starts at the top? It starts with leadership and 
ensuring that everyone understands those interests and that 
there's accountability in achieving, that there's milestones 
and there are consequences, frankly, if those outcomes aren't 
achieved.
    For me, that's a leadership model that has worked for me 
over nearly 35 years, and I will look forward to implementing 
as director, if confirmed.
    Senator Smith. Thank you, thank you very much.
    Madam Chair, I have a couple of questions for Dr. Baranwal, 
but I will submit those for the record in the interest of time.
    I appreciate you being here very much.
    The Chairman. Thank you, Senator Smith, I appreciate that.
    Senator Cassidy.
    Senator Cassidy. Folks, I will ask you to answer quickly 
just because I have limited time. Thank you.
    Mr. McNamee, following former Chairman McIntyre's 
confirmation to FERC, he initiated a review of the Commission's 
1999 policy statement on the certification of natural gas 
infrastructure. My colleague sent the FERC a letter last month 
asking the Commission, ``do no harm'' to their approval 
process. What are your thoughts on the current policy 
statement? Do you believe it is efficient? If not, what areas 
do you think FERC should review?
    Mr. McNamee. I think the importance of building out our 
energy infrastructure is very important which, I think, is part 
of the reason that Congress passed the Natural Gas Act.
    And obviously, with the nonconventional revolution, what 
Senator Cruz has called the American Energy Renaissance Act, 
it's really transformed America and been a game changer in 
terms of our access to energy, not just being able to, for our 
own consumption, but changing how we use it throughout the 
world.
    And in terms of the specific policy statement, I know that 
that is currently under review. So I don't think it would be 
appropriate to prejudge what various parties may have and may 
think about what that policy statement should ultimately be.
    Senator Cassidy. I accept that.
    Any other thoughts as to how the FERC regulatory review 
process could be, if you will, updated for the LNG operating 
facilities?
    Mr. McNamee. The one thing that's a perennial problem 
within government is the frustration over how permitting takes 
places whether it's, you know, whether it's for LNG facilities, 
whether it's throughout government. And it's something, I know, 
that Congress has grappled with, things such as the FAST-41 and 
the President's One Federal Decision.
    I know that, in terms of the LNG facilities, that FERC 
recently signed an MOU with the pipeline safety group over at 
the Department of Transportation in order to try and facilitate 
and make things move more quickly.
    And I think what's important is trying to make sure that 
you have the resources and the staff and that you're 
prioritizing what needs to be done. And in my past experiences, 
in both the attorneys general offices, in particular, I 
understand that you've got to make priorities.
    And so, I'd need to look into specifics, but I do 
understand that making sure that projects aren't delayed for--
--
    Senator Cassidy. Well, let me ask you this because one 
thing we have heard is that FERC has had challenges in 
attracting and retaining professionals. Somebody who is a great 
reviewer may get hired away far more. That suggested, either we 
could third-party it, subcontract or if somehow have some other 
mechanism. Any thoughts on that?
    Mr. McNamee. I think one of the blessings of the American 
Energy Renaissance Act is that there's a lot of projects, and 
there's a lot of good-paying jobs.
    I think that, to your point, we need to look at all options 
and to see how we can make sure that projects aren't delayed 
because there isn't sufficient staff. And if I'm fortunate 
enough to be confirmed, I will look into----
    Senator Cassidy. You smiled when I said that, suggesting to 
me that you actually know that to be an issue, the retention 
and the hiring of----
    Mr. McNamee. I think that it's an issue throughout not just 
government, but you're seeing it now in the private sector too 
which I guess that the good news in all that is that wages are 
rising.
    Senator Cassidy. And the great Trump economy is fantastic, 
huh? You don't' have to comment on that.
    [Laughter.]
    Mr. McNamee. I'm non-political.
    Senator Cassidy. I think it seems self-evident.
    In July, Senator Cornyn and I wrote a letter to FERC 
expressing our concerns with the March 15, 2018 decision to 
disallow master limited partnerships from taking an income tax 
allowance in their rate calculations. It is a subject of 
litigation, I understand that, but I want to take this 
opportunity to reiterate my hope that FERC provide 
clarification, at a minimum, if not reevaluate this decision 
altogether. I will follow up with a question for the record in 
more detail.
    Mr. Vela, a critical question. In two weeks, LSU plays 
Texas A&M.
    [Laughter.]
    Senator Cassidy. Whom will you support?
    [Laughter.]
    Mr. Vela. Very good question, sir.
    [Laughter.]
    Today, it's LSU.
    [Laughter.]
    Senator Cassidy. Oh my gosh, I am all for it----
    [Laughter.]
    ----although I will doubt his veracity.
    Listen, going back to fees and how do we support? When 
Secretary Zinke was here he said something I did not know, that 
if there's a whole van full of folks and one is a veteran, then 
the whole van full gets the benefit of the veteran being a 
veteran--no one pays a park admission fee because the veteran 
does not pay. Now I am all for veterans getting their access, 
but it does seem if you have a bus or a van full of folks and 
only one is a veteran, it is the veteran who should get the 
benefit, not the whole van full. Any thoughts on that?
    Mr. Vela. Well, I think what we're clearly doing here, 
Senator, is clearly honoring the service by that veteran.
    Senator Cassidy. Which we should.
    Mr. Vela. Absolutely, which you agree and support. I think 
when you go--when an individual goes through a national park 
and pays the entrance fee, it's for all the occupants in that 
vehicle as well. So not everyone has to pay. So it's somewhat 
comparable and it's just another means of recognizing the 
service of----
    Senator Cassidy. I will say that my colleagues have 
supported this taking revenue from the outer continental shelf 
to support the parks. I disagree with it, because it is not 
free money. They are making it out as if it does not have to be 
offset elsewhere in the budget. It absolutely has to be offset 
elsewhere in the budget----
    Mr. Vela. Correct.
    Senator Cassidy. ----and it is not true that it is free 
money. So I will just make that statement. If we are going to 
find the revenue someplace, it does seem that we need to look 
at what is an equitable distribution and how do we truly honor 
people.
    I am over time. I yield back. I appreciate it.
    Thank you.
    The Chairman. Thank you, Senator Cassidy.
    Senator King.
    Senator King. Thank you, Madam Chair.
    Mr. McNamee, I am surprised you did not give a direct 
answer to Senator Cortez Masto. The United States Code says any 
judge, justice or magistrate judge of the United States shall 
disqualify himself in any proceeding in which his impartiality 
might reasonably be questioned.
    It goes on to say where he has served in government 
employment and in such capacity, participated as counsel, 
advisor or material witness considering the proceeding or 
express an opinion concerning the merits of the particular case 
in controversy, he should disqualify himself.
    I don't understand any argument where you would have to 
consult any counsel anywhere on Earth to understand that you 
have a conflict of interest when it comes to this issue of the 
price, the so-called grid resiliency pricing rule, or any 
version thereof. Will you recuse yourself if that issue comes 
before the Commission and you are a member?
    Mr. McNamee. I believe that the statute that you read talks 
about a specific proceeding, and I'd want to talk with counsel 
or----
    Senator King. It goes on to say, or express an opinion, 
concerning the merits of the particular case or controversy. 
You have clearly expressed opinions on the merits of this issue 
repeatedly and, in fact, before this Committee.
    Mr. McNamee. I believe that the issue is, what is the 
specific issue that would come before FERC and whether it's the 
same issue or not.
    Senator King. So you, at this point, refuse to commit to 
recuse yourself if this issue comes back before the Commission?
    Mr. McNamee. I commit that I will consult with ethics 
counsel to make sure that I comply not only with the statute 
but also with the bar ethics rules.
    Senator King. I am surprised and disappointed that you feel 
you have to consult with counsel on something that is so clear.
    You, before being nominated and when you wrote your article 
about fossil fuels, were employed by something called the Texas 
Public Policy Foundation. You mentioned it in your testimony. 
Who funds that organization?
    Mr. McNamee. I think there's a variety of funders.
    Senator King. Do you know any specifics?
    Mr. McNamee. The--I think there are some oil and gas 
producers in Midland, Texas. Midland and Odessa, I believe, are 
supporters. I know that there are supporters in Houston and I 
think there's a supporter, a natural gas compressor company in 
Ohio, but that's subject to check.
    Senator King. Have the Koch brothers, directly or 
indirectly, been substantial supporters of that foundation?
    Mr. McNamee. I've read that in the paper. I do not know 
that from personal knowledge.
    Senator King. Thank you.
    You talked about the transition and what we can do, and I 
think the short answer to your question in your article, ``Some 
suggest we can replace fossil fuels with renewable resources, 
but they never say how.'' The short answer to that is storage. 
Are you a supporter of the development of additional storage 
capacity and would you support that policy as a member of FERC?
    Mr. McNamee. The current rule on storage is currently, I 
believe there's a rehearing pending, so I don't want to state 
specifically on that proposal but clearly storage is an 
important thing for the transformation of the grid. I think 
that's really the thing that's going to unlock the use of 
renewables because then you're not going to have to worry about 
the time of day and whether those resources are available and 
you'll be able to dispatch the storage when it's needed.
    Senator King. I agree. I think that is the answer to your 
question that you stated in your article for exactly the same 
reason that you just stated.
    Dr. Baranwal, short answer. Is the development of a 
financially-feasible nuclear power plant, next generation, is 
that possible? Do you see that in the foreseeable future?
    Dr. Baranwal. I do, and I know companies are working on 
that.
    Senator King. And is that one of the priorities of your 
office that you are going to be undertaking?
    Dr. Baranwal. If I am confirmed, that will be one of my 
priorities, to support the advanced reactor community, yes.
    Senator King. And give me an estimated timeframe. Are we 
talking 5 years, 10 years, 50 years? I mean, this has been a 
long time coming.
    Dr. Baranwal. So there are some developers who are looking 
to deploy their concepts within less than five years. Others 
are looking at a 2025 to 2030 timeframe. So it's all of the 
above, Senator.
    Senator King. Alright, thank you.
    Mr. Vela, you are taking over a very important agency and 
I--this is ground that we have already plowed, but I take it 
that you are supportive of the Restore Our Parks Act, which is 
bipartisan legislation reported out by this Committee?
    Mr. Vela. Absolutely, Senator.
    Senator King. And if that is enacted, you will see that it 
is implemented properly across the country?
    Mr. Vela. Sir, if confirmed, we will make sure that we have 
full transparency and accountability in achieving the outcomes 
of the bill.
    Senator King. I do have a suggestion for how to allocate, 
as between the parks, that it be done alphabetically.
    [Laughter.]
    That would start with Acadia.
    Mr. Vela. With Acadia?
    The Chairman. By state, though, by state.
    Mr. Vela. Or Alaska. There you go.
    [Laughter.]
    Senator King. Thank you.
    Mr. Vela. Yes, sir, thank you, Senator.
    Senator King. Thank you, Madam Chair.
    The Chairman. Thank you, Senator King.
    Senator King. Denali would be fairly high on the list.
    The Chairman. It would be, it would be.
    [Laughter.]
    While Senator Hoeven gets himself settled here, let me just 
ask a couple of quick questions of you, Mr. Vela, and these are 
pretty parochial. I am seeking your commitment this afternoon 
to work with us on a few very Alaska-specific projects.
    We have the Noatak road. I am sure you have been briefed on 
this. I was out in Noatak, which is out in the Northwest Arctic 
Borough, less than a month ago and we had great conversations 
about how, as a village, they face extraordinarily high fuel 
costs. The only way to get fuel in is to fly it in. We would 
have an opportunity to reduce fuel costs considerably if there 
were an opportunity to cross the Cape Krusenstern National 
Monument. The folks there in the village of Noatak, working 
with others, have been trying to address this. I just ask for 
your commitment to help continue this process of engagement, 
recognizing that this is a considerable issue to not only that 
community, but to others in the region.
    Mr. Vela. Chair Murkowski, if confirmed, it would be my 
pleasure. I clearly value that your great state is clearly 
unique with ANILCA and just these types of issues and 
interests, and I would look forward to learning more about them 
and spending more time with you accordingly.
    The Chairman. Well, I am sure that you would receive a 
welcome invitation----
    Mr. Vela. Thank you.
    The Chairman. ----to go up to Noatak and to so many of the 
others.
    Another small community that I would like you to visit is 
Gustavus. That is down in the southeast. It is a community that 
has also been faced with very high energy costs but they have a 
beautiful natural solution right there with their small hydro.
    They are working to complete a hydro intertie project. It 
has been painfully, painfully, painfully slow to get the 
National Park Service to agree to come off of their diesel-
powered generator and tie into the small hydro that is there 
that would benefit folks within the community as well as the 
park.
    So, again, I would ask for your commitment to be engaged 
with this project and working with the local community to 
ensure that the project's goals are met.
    Mr. Vela. Yes, ma'am. It would be my pleasure.
    The Chairman. Great. We have a whole bunch of others.
    Let me turn to Senator Hoeven right now.
    Senator Hoeven. Thank you, Madam Chairman.
    Mr. Vela, thanks for coming by and meeting with me the 
other day. I appreciate it very much and look forward to 
working with you.
    As you know, we are working on a Theodore Roosevelt Library 
in Theodore Roosevelt National Park in my state. I would ask 
for your commitment to help us in that effort and also ask a 
little bit about how you might approach it?
    Mr. Vela. Thank you, Senator.
    And I'm aware that the Secretary is also committed in this 
initiative. I have a little experience as a superintendent 
working with presidential libraries and, if confirmed, I hope 
to bring that to the table. But I think the most important 
thing is to continue to listen to all the stakeholders and 
develop a path forward, a proactive game plan that helps to 
achieve those interests.
    Senator Hoeven. But you are committed to the project?
    Mr. Vela. Yes, sir.
    Senator Hoeven. Okay, great.
    And then the Restore Our Parks Act, which you know we are 
working hard to move to provide for the deferred maintenance in 
our park, $12 billion for our parks, more than $50 million in 
my state. Talk to me about how you might help advance that and 
utilize those dollars for the parks.
    Mr. Vela. Well, I think one of the good things, Senator, is 
that in our facilities management system, our facility managers 
and superintendents have helped to develop priorities, critical 
infrastructure needs. So what I would be looking at, if 
confirmed as Director, is to assess what they are, where they 
are, and what would be, what are appropriate outcomes by way of 
timelines but, again, getting back to the accountability and 
transparency piece.
    Senator Hoeven. And you were the supervisor at the Grand 
Teton National Park?
    Mr. Vela. Superintendent, yes, sir.
    Senator Hoeven. Superintendent, and we have had like, five 
million visits a year there.
    Mr. Vela. Yes, sir.
    Senator Hoeven. We also want to plumb your great thoughts 
and understand how we are going to get Theodore Roosevelt 
National Park----
    [Laughter.]
    Mr. Vela. ----move that to North Dakota.
    Senator Hoeven. ----to five million visits a year we are 
looking for.
    Mr. Vela. Yes, sir, okay.
    Senator Hoeven. Thank you.
    Mr. Vela. Yes, sir.
    Senator Hoeven. Mr. McNamee, baseload is crucially, vitally 
important to this country. It really is a national security 
issue. So I am a true believer in all-of-the-above energy 
development. We want to continue to bring all sources of energy 
online and produce more energy and be energy self-sufficient, 
be able to export energy, all those things.
    But how do we make sure that baseload has access to 
transmission which is so difficult, as you know, to build and 
develop? Given some of the priorities the renewable sources 
have and so forth, how do we make sure that our baseload has 
reasonable access to transmission and so that we maintain 
sufficient baseload for national security purposes?
    Mr. McNamee. Well, obviously it's important to recognize, 
you know, the current fuel mix is about 62 percent fossil 
fuels, about half of that is natural gas, half of that is coal. 
Of course, then we have nuclear and renewables filling the 
rest.
    And all those resources are currently being used to power 
the grid and sometimes in different parts of the region, in 
your part of the country, it's a little bit different than 
others. And the issue of transmission is an issue that's 
widespread, not just for baseload but also, I know, renewables 
are concerned about it. I know Congress has tried to address 
some of it by providing some incentive funding for transmission 
lines.
    Having worked on transmission applications at the state 
level, I understand some of the complications that go on with 
that. And I think that ultimately, you know, transmission lines 
are ultimately sited and those decisions are made--for electric 
transmission lines--are made by the state, but FERC has a role 
in terms of how it implements the incentive funding that goes 
on, particularly incentive funding that Congress provided it.
    Senator Hoeven. Okay, let me put it this way. Do you think 
we need baseload power and transmission to move around the 
country?
    Mr. McNamee. I think that the electricity mix is changing. 
I think that baseload, what has been termed baseload, 
obviously, has been changed. I think that the existing 
resources such as coal and fossil fuel are currently very 
important and they currently run the grid.
    Senator Hoeven. Is that a yes?
    Mr. McNamee. They are currently very important but the 
issue, I don't want to play games with you with it and that's, 
I think, important is that baseload is----
    Senator Hoeven. Well, I am just looking for yes or no 
whether you think we need baseload.
    Mr. McNamee. I think that the challenge with baseload is 
that baseload and baseload generation have started to converge 
as to what they mean and that's the challenge.
    Senator Hoeven. So that is, you are not going with a yes or 
no here, right?
    Mr. McNamee. I'm--instead of going yes or no, I'm trying to 
be truthful in saying I understand that there are challenges in 
the divergence of how baseload power, the baseload which is, 
you know, what's basically needed to power the grid and then 
how you have the, basically, the load curve and how as the 
markets have developed as renewables have come in and others 
that where you used to have a coal plant that would run 85, 90 
percent capacity factors, they're not doing that anymore. You 
may have nuclear plants that are still running at 92 percent 
capacity factors.
    I don't want to waste your time, but I'm not saying yes or 
no because if I'm fortunate to be confirmed to FERC, understand 
that there's these complications that they need to consider.
    Senator Hoeven. Madam Chairman, can I beg your indulgence 
for one more question?
    The Chairman. Yes.
    Senator Hoeven. Dr. Baranwal, in regard to security for 
things like nuclear, storage, nuclear plants and so forth, what 
role do you see for unmanned aviation? We are doing a lot in 
our state with UAS, unmanned aviation, border security, and all 
kinds of different applications--commercial, military, 
agriculture, industrial, energy. Do you see a role that, in 
terms of security, for some of our nuclear sites and other 
energy sites that UAS can play?
    Dr. Baranwal. So I do have a little bit of experience with 
UAVs, unmanned aerial vehicles, and their application to the 
nuclear industry. It is more so for inspections of new plants, 
however, but I do know that other utilities have been using it 
for inspections outside of their facilities and would 
anticipate that they can also be used for the security 
applications that you're suggesting. I'm not terribly familiar 
with that specific application, but it seems like it could be 
possible.
    Senator Hoeven. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator.
    Dr. Baranwal, let me ask you a question. It was raised by 
Senator Capito some time ago when she was speaking about the 
potential for small modular reactors in mining industry.
    We have some interest in remote areas of my state in better 
understanding the application of microreactors and the 
potential that they might be able to deliver.
    We are a state where we figure we are on everybody's radar 
for oil and, certainly, natural gas, but we are also a 
significant leader when it comes to renewable energy resources. 
And people do not necessarily think about Alaska as a potential 
prospect for the small or the microreactor.
    But yet, in many applications I think they make a lot of 
sense, trying to move our small, remote areas off of diesel 
generation. So it is not just within say, for instance, the 
mining sector, but also the prospect and the possibility for 
our military bases and installations that are also often very 
remote.
    Can you share with the Committee what you believe the 
greatest challenges are with regards to market adoption of 
microreactors, and then also how the Office of Nuclear Energy 
can work with the Department of Defense in integrating the 
potential for microreactors, small reactors, to meet our 
national security needs?
    Dr. Baranwal. Sure, yes. Thank you, Chairman.
    I am very excited about the prospect of application of 
microreactors to support especially remote communities both in 
the Arctic type of areas as well as desert communities and 
military bases, regardless of the community.
    I think at the moment some of the biggest challenges are 
not necessarily technical, they're around perception and 
policy. And so, I think in collaboration and working with the 
Nuclear Regulatory Commission around regulation, and then 
working with all of you as Congress to work around policy will 
help address some of those challenges.
    The perception piece, I think, is--the onus is on everybody 
in the nuclear industry to help alleviate some of the 
perception issues.
    And with respect to your question about working with DoD, 
if I am confirmed, I absolutely will work with you and your 
staff to work with the DoD and understand what the needs are 
and what the relationship needs to be to ensure that we can 
possibly deploy microreactors for the applications that you 
mentioned.
    The Chairman. I think we have such opportunity in this 
space and when we look to our responsibility, our obligation, 
to do what we can from a policy perspective to reduce emissions 
in this country, to move toward cleaner sources of energy, 
nuclear just has to be part of this discussion. And I agree 
with your comment about the perception and how we deal with 
that. I know, in working with my colleague from California, 
Senator Feinstein, and Senator Alexander, as the Chairman and 
Ranking on the Appropriations Committee for Energy and Water, 
and working with Senator Cantwell here as authorizers, we have 
to deal with waste issues, that must be addressed.
    But again, I think we are, we have such an opportunity 
within the nuclear space. I have introduced legislation 
recently that, again, I hope will help push us out with that, 
not only with the technologies but with the workforce and 
ensuring that the United States is a leader in this space. So I 
look forward to working with you in that role as well.
    I want to thank each of you. You have given the Committee a 
good amount of your time this morning. I thank your families 
and your friends for being here to support you. That means a 
lot.
    I think you saw good participation from the Committee here. 
We all agree that there are far more questions that we could 
have asked each of you.
    I appreciate your commitment, Mr. Vela, to really focus on 
some of the workforce issues that have been raised here today. 
We want to make sure that within our agencies, all of our 
federal agencies, that morale is good, that people are proud of 
where they work, that they go to work without fear of 
intimidation or harassment of any kind, without fear of any 
level of discrimination and making sure that we have that 
appropriate culture built-in is absolutely key and critical. 
And you are right, it does start at the top. So I thank you for 
your commitment to focus and to work on that.
    Mr. Vela. Thank you, ma'am.
    The Chairman. Mr. McNamee, you have heard very clearly, we 
expect the Federal Energy Regulatory Commission to be that 
independent, unbiased entity and to act in a manner that, 
again, you are not picking the winners and losers, you are not 
tipping the scales based on political perspective, but that you 
truly are evaluating these considerations that are so 
important. The issue of resilience within our electric grid, 
our energy sector, this is key. This is timely. This is an 
imperative. But again, knowing that we have a Commission that 
is fair, impartial and unbiased, that independent arbiter is 
what we need and what we expect.
    Dr. Baranwal, I am very impressed by the credentials that 
you have shared with us, your background, your life, your role 
model which is really very important and very encouraging. And 
I appreciate the passion with which you approach not only this 
position that you have been nominated for but to your work 
prior to this time.
    With that, again, I will remind colleagues that if they 
have additional questions, we would like to get them in by 
close of business so that we can start moving forward.
    As I mentioned, it is my intention to try to move you all 
through the process as expeditiously as possible. Who knows 
what happens in lame duck? But we will be prepared.
    I thank you for the time that you have given us and thank 
you for your willingness to serve.
    With that, the Committee stands adjourned.
    [Whereupon, at 12:17 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------    
                              
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              




</pre></body></html>
